Environmental Data Quality at DOD Superfund
Sites in Region 9
                                   TABLE OF CONTENTS
Executive Summary

CHAPTERS

1 - Introduction

Purpose

Background

Scope and Methodology

Prior Audit Coverage

2 - Laboratory Quality Assurance Oversight at DOD Sites Needs Improvement

3 - Sacramento Army Depot

4 - March Air Force Base

5 - Travis Air Force Base

6 - Hunters Point Naval Shipyard

7 - Luke Air Force Base

APPENDICES

Appendix A - Region 9 Response to Draft Report

Appendix B - OIG Evaluation of Region 9 Response

Appendix C - Superfund Cleanup Process

Appendix D - Regulations, Orders, Directives, and Guidance

Appendix E - Activities Contacted During the Audit

Appendix F - EPA Data Analytical Levels

Appendix G - Definitions of Quality Assurance Techniques

Appendix H - Acronyms
Appendix I - Report Distribution

                                                   Chapter 1
                                                  Introduction

PURPOSE

EPA has an important role in overseeing Department of Defense's (DOD) Superfund cleanups. This role
includes ensuring that laboratory data is of acceptable quality. EPA is also responsible for expediting cleanups
at closing and downsizing bases by resolving critical technical issues, such as those with laboratory data quality
problems, before they become impediments to cleanup and reuse.

In 1992, serious problems began surfacing with the quality of laboratory data used in the cleanup of DOD
Superfund sites located in Region 9 (the Region). These problems caused millions of dollars of laboratory data
to be rejected and cleanups to be delayed.

The objective of the audit was to determine if the Region was ensuring that laboratory data was of known and
acceptable quality under Federal facility agreements with DOD.

BACKGROUND

Characterized as the nation's largest industrial organization, DOD has 100 bases on the EPA's Superfund
National Priorities List (NPL), a register of the nation's worst contaminated hazardous waste sites.

Twenty-four of these bases are located within the Region. DOD bases received $2.7 billion in Fiscal 1995 to
cleanup their contaminated sites.

Nearly half of the NPL bases in the Region are scheduled for closure. However, hazardous waste contamination
on many of these bases must be cleaned up before the property can be returned to the community for economic
development.

For decades, DOD facilities generated, stored, and disposed of hazardous wastes, which often contaminated
nearby soil and groundwater. Hazardous waste contamination can significantly contribute to serious illness or
death, or pose a hazard to the environment. The types of hazardous wastes found at most DOD installations
include solvents and corrosives; paint strippers and thinners; metals, such as lead, cadmium, and chromium; and
unexploded ordnance. Contamination usually results from disposal, leaks, or spills

Under the Comprehensive Environmental Response, Compensation, and Liability Act and its amendments,
commonly known as Superfund, DOD is required to carry out its hazardous waste cleanups according to the
same guidelines as other facilities. Executive Order 12580 further delegates certain cleanup authorities under
Superfund to DOD.

Federal Facility Agreements

Once a base is placed on the NPL, EPA, DOD, and the state must negotiate a Federal facility agreement to
govern the cleanup. The state is a party to the agreement because Superfund requires Federal agencies to consult
with states regarding cleanups. Also, Federal agencies must comply with state environmental laws, which
sometimes are more stringent than Federal rules.

Federal facility agreements set requirements and enforceable schedules for completing studies, reports, and
cleanup records of decision. EPA is responsible for overseeing these agreements and has final approval
authority over fundamental documents, such as the risk assessments and the feasibility studies. It also has final
decision-making authority for selecting, on the basis of environmental data, the cleanup remedy. EPA also
oversees cleanups at closing bases not on the NPL. (The Superfund cleanup process is described in Appendix C
of this report.)

Environmental Data Quality Requirements

Environmental data is obtained primarily by sampling contaminated water, soil, air, and other materials, and
having the samples analyzed by a laboratory. EPA Order 5360.1 requires environmental measurements to be of
known quality, verifiable, and defensible. The quality of environmental data may be adversely impacted by
weaknesses in sampling, laboratory analysis, and the validation of results. Poor quality data can negatively
impact or delay the decision making process. Further, incorrect decisions can lead to inadequate health
protection or expenditures for unneeded cleanup remedies.

The primary goal of the QA program is to ensure that all environmentally related measurements...[Laboratory
Analysis] produce data of known quality. The quality of the data is known when all components...are thoroughly
documented, such documentation being verifiable and defensible.

-EPA Order 5360.1

In focusing our audit on laboratory data quality activities, we determined that, unlike EPA, DOD does not have
a centrally-managed contract laboratory program for monitoring laboratory quality. Typically, DOD's cleanup
efforts are carried out by contractors, who procure the laboratory services.

Steps to Ensure Laboratory Analyses Quality

There are two major steps to ensure the quality of laboratory analyses for a site.

First, data quality objectives must be determined. Such objectives define how data will be used, and establish
corresponding quality objectives before data is collected, thereby resulting in a defensible decision-making
process.

Second, a quality assurance project plan (QAPP) must be developed in accordance with 40 CFR 300.430. The
quality assurance activities necessary to achieve the data quality objectives are incorporated into a QAPP. This
plan is a blueprint for ensuring the laboratory analyses produce data of sufficient quality and quantity for
decision-making.

EPA's Oversight Responsibilities

EPA's regulations and EPA Office of Solid Waste and Emergency Response (OSWER) directives define
regional oversight responsibilities in the Federal facility area. (The applicable guidance is listed in Appendix D
of this report.)

In overseeing a Superfund cleanup, EPA is responsible for:

Ensuring environmental data is of known and acceptable quality for decision making;

Approving the QAPP and ensuring that it is acceptable; and

Verifying that the QAPP is implemented.
The Hazardous Waste Management Division is responsible for implementing the Superfund program in the
Region. The Division's Federal Facilities Cleanup Office works with Federal, state and local agencies to oversee
investigations and cleanups at Federal facilities. It is also responsible for initiating enforcement actions.

                           Regional

                           Administrator

     Hazardous                          Office
     Waste                              Of Policy
     Management Division                And Management
     Federal                            Environmental
     Facilities                         Services
     Cleanup Office                     Branch

The Region's Environmental Services Branch, under the Office of Policy and Management, helps ensure that
"key environmental decisions...are based on environmental measurements of the correct type and of sufficient
quality and quantity." It reviews QAPPs and provides technical assistance to program offices.

SCOPE AND METHODOLOGY

We performed our audit in accordance with Government Auditing Standards issued by the Comptroller General.
Our field work was conducted between November 17, 1994 and June 30, 1995. Our audit covered the period
Fiscal 1991 to 1994 and management procedures in effect as of December 31, 1994.

We reviewed the Region's oversight of laboratory data quality assurance activities at 5 of the 24 DOD bases on
the NPL. This included the following facilities:

March Air Force Base;

Travis Air Force Base;

Hunters Point Naval Shipyard;

Luke Air Force Base; and

Sacramento Army Depot.

The first four facilities were selected because of known or possible problems with the quality of laboratory data.
The Sacramento Army Depot was selected because some data validation procedural problems were noted in our
audit survey. In addition, some limited audit survey work was done at Mather Air Force Base.

Internal Controls

We reviewed the internal controls associated with the regional oversight of laboratory data used by DOD
facilities, including the Federal facility agreements, the QAPPs, and implementing guidance. The internal
control weaknesses noted in our audit are described in Chapters 2 and 3 of this report, along with
recommendations for corrective action.

FMFIA

In planning our audit, we reviewed EPA's 1994 Integrity Act Report to The President and Congress, issued in
December 1994. This report, which documents EPA's compliance with the Federal Managers' Financial
Integrity Act, identified environmental data quality as an existing material weakness. It also stated that
previously reported problems with EPA's oversight of Federal facility cleanups had been corrected. Our audit
report identifies additional problems related to EPA's oversight of Federal facility cleanups.

To accomplish our audit objective, we obtained:

Applicable laws, regulations, directives, and other guidance, including DOD laboratory quality assurance
guidance;

Federal facility agreements;

QAPPs and related review comments; and

Evidence of quality assurance oversight.

We interviewed responsible EPA, DOD, and state officials. (A complete list of the entities contacted during the
audit is included in Appendix E of this report.)

To evaluate the effectiveness of laboratory quality assurance, we identified quality assurance activities used in
EPA's Contract Laboratory Program, and those activities that detected laboratory data problems at DOD sites.

These activities were used to evaluate the adequacy of the QAPPs. We determined compliance with key quality
assurance activities in plans by reviewing supporting documentation. The audit also identified other key quality
assurance activities that were not called for in the plans.

We also evaluated regional procedures for improving laboratory data quality at Federal facilities.

PRIOR AUDIT COVERAGE

There have been no prior audits of environmental laboratory quality at DOD by either the EPA Office of
Inspector General, the Department of Defense Office of Inspector General, the General Accounting Office, or
the military service audit agencies. However, in a related audit, the Air Force Audit Agency evaluated
environmental contract oversight at selected bases. Its report, issued on November 16, 1994, determined that
Air Force oversight of environmental compliance contracts was not adequate.

                                              Chapter 2
                Laboratory Quality Assurance Oversight At DOD Sites Needs Improvement

SUMMARY

In 1992, serious problems began surfacing with laboratory analyses related to Superfund cleanups at DOD sites
in Region 9. At the same time, a regional survey identified quality assurance deficiencies at Federal facilities in
the Region. However, at the time of our review, the Region had not significantly strengthened its laboratory
data quality oversight program at its DOD NPL sites.

The integrity of the data used to make cleanup decisions cannot be compromised if we are to successfully fulfill
our joint responsibilities to protect public health and the environment.

-Region 9's Federal Facilities Cleanup Office in a May 1994 letter to DOD
QAPPs, the primary tool for controlling laboratory quality, were generally not designed to detect the laboratory
quality problems found at the five DOD sites reviewed. We also found that QAPPs were not always officially
approved or fully implemented. Further, the Region did not effectively monitor compliance with QAPPs or
perform sufficient oversight to determine the quality of laboratory data. In addition, QAPP inadequacies were
not corrected after data problems were found. We found many of these problems manifested at Sacramento
Army Depot, resulting in serious data quality deficiencies. In our opinion, the extent of these deficiencies
compromise the validity of the determination that a portion of the Depot had been cleaned up.

We also believe that a more effective quality assurance oversight program would have avoided a portion or all
of the $5.5 million of rejected laboratory work and cleanup delays of up to 2 years.

DOD'S LABORATORY PROBLEMS

In 1992, the Region became aware of serious problems with the quality of laboratory work performed by DOD
contractors. In May 1992, the Navy informed the Region that $2.5 million of data analyzed for the Hunters
Point Naval Shipyard cleanup had been rejected. In September 1992, the Air Force informed the Region that
there were significant problems with the laboratory analyses for Travis Air Force Base (AFB). Subsequently,
EPA determined that $2 million of data was of unknown quality, setting the Travis AFB cleanup back 2 years.

Problems with Eureka Laboratories

In January 1993, the Region identified significant problems with laboratory analyses for the March AFB
cleanup, eventually resulting in the rejection of $1 million of data. The laboratory performing the poor analyses
for March Air Force Base, Eureka Laboratories, Inc., was eventually convicted of fraud based on its analyses
for March AFB and another DOD site in Region 8.

Commendably, the Region took aggressive action to help prevent further data problems once the Eureka
analyses deficiencies were discovered. At the Region's request, EPA suspended Eureka Laboratories in
December 1993 from all future Federal direct procurements. In May 1994, the Region wrote to DOD asking for
a "...comprehensive analysis of the impacts of the Eureka case...in Region 9..." In July 1994, Eureka
Laboratories and two of its managers were indicted on 71 counts of fraud.

In August 1994, DOD responded to the Region's request, and identified 24 DOD installations that used Eureka
Laboratories in the Region since 1989. However, DOD's response was not a complete analysis of the use of
Eureka Laboratories' data. For example, DOD reported that Tracy Defense Distribution Region used Eureka
Laboratories. However, DOD did not identify the extent of the laboratory's work done for Tracy or steps taken
to ensure the reliability of data.

Eureka confirmed, by letter to ... the prime contractor, that none of the analyses were under question by EPA or
were subject to fraudulent practices.

-Letter from DOD to Region 9,

August 12, 1994

The steps DOD reported it took to determine the reliability of data at other sites were clearly inadequate. For
example, DOD said the Naval Station Guam and Pearl Harbor Naval Shipyard were not affected by the Eureka
Laboratories problems. They indicated that Eureka Laboratories confirmed that none of the analyses for these
bases were under question by EPA or were subject to any fraudulent practices. It is logical to assume that a
laboratory under investigation for fraud would not admit to any fraudulent practices.
Also, DOD's response for these two sites did not indicate what types of cleanup decisions the data was used for.
Additionally, DOD did not identify how it verified that the data was valid. Further, DOD failed to report a least
three installations that used Eureka Laboratories.

In spite of DOD's incomplete response to the Eureka concerns, the Region did not request any further data from
DOD. In our opinion, the impacts of the Eureka fraud need to be accurately determined to ensure that the
laboratory data at affected sites is of the quality needed for decision making.

RELIABILITY OF DOD'S LABORATORY QA PROGRAM UNKNOWN

We also found that the Region's remedial project managers were unfamiliar with DOD's specific laboratory
quality assurance procedures. The Region explained that DOD had the principal responsibility for data quality
assurance. However, the Region is ultimately responsible for ensuring data is of known quality. Thus, the
Region must perform sufficient oversight to ascertain the quality of the laboratory data.

It shall be the policy of all EPA organizational units to ensure that ... environmentally related measurements
are of known quality.

-EPA Order 5360.1

The degree of regional oversight of DOD sites should depend on the effectiveness of DOD's laboratory quality
assurance program. If DOD has an effective quality program, the Region can reduce its oversight procedures.
Conversely, if DOD has a marginal quality assurance program, the Region needs to increase its oversight
efforts.

We found the Region accepted at face value the description of laboratory quality assurance procedures provided
by the DOD activities. However, our review disclosed that these procedures were not accurately portrayed. For
example, DOD purported that a laboratory must successfully analyze performance evaluation samples before it
receives samples. In actuality, performance evaluation samples were not always used. Further, laboratories were
provided more than two opportunities to "pass" a performance evaluation sample.

We also question whether DOD's quality assurance procedures can be relied upon. This was illustrated by the
results of laboratory audits of Eureka Laboratories.

Standard operating procedures...are available throughout...[Eureka Laboratories]. However, most of them are
incomplete (with regards to QC and calibration requirements and acceptance criteria) and unapproved... Metals
preparation, sample custody, and GC [gas chromatography]-pesticide SOPs do not represent what is actually
being done...

-Air Force contractor,

February 11, 1991

An Air Force laboratory audit found major problems with Eureka Laboratories in January 1991 and again in
October 1992. Apparently unaware of these problems, the Army Corps of Engineers (the Corps) validated
Eureka Laboratories for an 18-month period starting January 1992. The validation was made after determining
that performance evaluation samples successfully passed without any other major or minor deficiencies.

A Navy contractor also reviewed Eureka Laboratories in April 1991 and determined that Eureka Laboratories:
Has both the technical ability and sample capacity to meet the analytical and reporting requirements for the
volume of work proposed for Navy...projects.

Subsequently, both the Army and Navy used Eureka Laboratories. In our opinion, the obvious difference in
quality of laboratory audits between the military services impacts the degree of oversight the Region must
perform.

No Tracking System

In 1986, EPA's Office of Solid Waste and Emergency Response issued a directive which required the oversight
and monitoring of all Superfund laboratories, not just those under EPA contract. However, to date, the Region
does not have a data base or tracking system to identify and oversee laboratories used at DOD NPL sites. To
illustrate, when the Eureka Laboratories fraud was discovered, the Region could not determine the extent that
Eureka's laboratories had been used at DOD NPL sites.

We believe this is a serious deficiency that warrants the development of some type of data base tracking system
for Federal sites which identifies the laboratory used, the quality assurance measures performed, and any data
quality deficiencies.

REGIONAL SURVEY IDENTIFIES LABORATORY QUALITY ASSURANCE DEFICIENCIES

In a 1992 survey of laboratory quality assurance oversight practices, the Region found vulnerabilities in Federal
facility Superfund cleanups. The survey found that data validation, split sampling and performance evaluation
sampling were used to a much lesser degree at Federal facility sites than at EPA lead sites.

The survey concluded that:

...the ultimate quality of the data generated was not known at a number of sites. As demonstrated by recent
events at Hunters Point, this is a program vulnerability.

In spite of this acknowledged vulnerability, we were advised, at the beginning of the audit, that no actions had
been taken as a result of the survey. To illustrate, at Sacramento Army Depot, we found that since 1992 the
Region had not performed any independent oversight of laboratory quality using procedures such as data
validation, performance evaluation samples, or magnetic tape audits.

QAPPS LACKING EVIDENCE OF EPA APPROVAL

We found the Region frequently could not provide evidence that the QAPPs were approved. Both 40 CFR 300
and EPA Order 5360.1 require EPA approval of the QAPPs. Regional guidance document no. 9QA-03-89 calls
for both the Region's remedial project manager and quality assurance officer to approve each QAPP.

We reviewed 12 QAPPs for the 5 DOD bases in our audit. The review identified that only two QAPPs had
documented approvals by both the regional program office and the Environmental Services Branch's Quality
Assurance Section, which was responsible for quality assurance. Both of these QAPPs were for Sacramento
Army Depot. Also, a QAPP for the Groundwater Operable Unit at the Depot was not prepared.

Unlike other investigations currently being conducted at [Sacramento Army Depot], ...the ground water
investigation therefore lacks a Quality Assurance Project Plan.

-Letter from Region 9's Environmental Services Contractor, December 1989
The Region advised us that it did not need formal documentation to approve QAPPs. It pointed out that under
Federal facility agreements, QAPPs will automatically be considered "final" documents if the Region did not
provide comments to DOD within its 30-day review period.

In our opinion, formal approval is essential for a couple of reasons. First, without formal approval, it is not clear
if the QAPP being used is the most current version. In fact, a recently issued EPA quality assurance regulation
(EPA QA/R-5) calls for making sure all personnel involved in the cleanup work have copies of the approved
QAPP. We found several versions of QAPPs during our reviews, but it was not apparent which one was the
"approved" version. In fact, one regional remedial project manager provided us an "approved" QAPP that
turned out to be a draft version.

Second, formal approval from the Region's Quality Assurance Section would help ensure its comments were
solicited, received, and considered by the remedial project managers. EPA QA/R-5 provides that the appropriate
content in the QAPP may be best achieved by having the QAPP reviewed and confirmed by the EPA remedial
project manager, with the assistance and approval of the quality assurance manager.

However, it did not appear that the Quality Assurance Section recommendations were always given full
consideration. For example, the March AFB QAPP was not approved by the Region's Quality Assurance
Section. The section had previously recommended that the QAPP address the selection of subcontract
laboratories and include more detail on the conduct of laboratory oversight. However, these recommendations
were not included in the QAPP. In this case, DOD's laboratory selection process for March AFB had
vulnerabilities, which were fully manifested by the selection of Eureka Laboratories. This issue is further
discussed in Chapter 4 of this report.

It is recommended that the basewide plan [for March Air Force Base] address the selection of subcontract
labor-atories and how laboratory oversight...will be conducted throughout the duration of the project.

-Regional quality assurance

staff recommendations,

September 13, 1991 QAPPS NOT WELL DESIGNED

Our audit disclosed that the QAPPs for the five DOD bases evaluated were typically not designed to detect poor
laboratory work. To determine the most effective quality assurance techniques, we identified those that detected
problems at the sites included in our report. As shown in the chart below, we found that certain techniques were
highly effective in detecting poor or fraudulent laboratory data.

                                       Quality Assurance Techniques Used
                                       To Identify Data Quality Problems
     Quality
                         March Air         Hunters Point         Travis Air          Sacramento          Luke Air
    Assurance
                         Force Base        Naval Shipyard        Force Base          Army Depot         Force Base
    Technique

Full Data Validation                     X                                       X                     X

"Double Blind" PE
                        X
Samples

Magnetic Tape
                        X                                                                              X
Audits
Laboratory Audits      X                                       X

As discussed below and in Chapters 3 through 7 of this report, we found that the above four quality assurance
techniques were generally not required by the QAPP. In those instances where the techniques were required,
they were not sufficiently monitored by DOD or EPA.

Except for Travis AFB, we found that the QAPPs were not revised after laboratory data analyses problems were
found. To illustrate, the QAPP for March AFB was not revised to require double-blind performance evaluation
samples or magnetic tape audits, even though the Region used these techniques to identify data problems.

We believe the QAPPs could be better designed to detect poor quality data by incorporating techniques that
have been successful in identifying prior data problems. This should be done at the time of the annual QAPP
review required by EPA QA/R-5:

For programs or projects of long duration,...the QAPP shall be reviewed at least annually by the Project
Manager, revised if necessary to reflect current needs, and resubmitted for review and approval.

DATA VALIDATION REQUIREMENTS

Data validation is used to of ensure that laboratory data is of known quality. It involves reviewing data against a
set of criteria to provide assurance that data is adequate for its intended use.

                                           KEY DECISION POINTS
                                           Requiring Data Validation

Determining contaminants of concern.

Identifying the extent of contamination.

Determining a cleanup is complete.

-"Basic Requirements for Quality Assurance at Region 9 Superfund Sites,"

Region 9, July 1988

Data validation is absolutely essential at key decision points, such as determining the boundaries of
groundwater contamination.

EPA has data validation guidelines, known as national functional guidelines, for its own contract laboratory
program. Generally, the QAPPs reviewed called for data validation that corresponded with EPA data validation
guidelines. Data validation is typically performed on 100 percent of the data produced by EPA's contract
laboratories. However, for DOD NPL sites, typically a much lower percentage is required.

According to EPA guidelines, data validation includes a review of documentation such as raw data, instrument
printouts, chain of custody records, and instrument calibration logs. In order to perform an EPA-type validation,
the data package should be an EPA "Level IV" package that includes the necessary documentation. (See
Appendix F for description of data levels.) Without a Level IV package, it is not possible to evaluate many
aspects of a laboratory's analyses or even verify the analyses were performed.

...a percentage of data representing all matrices, analysis types, and lab contractors for decision points should
be selected for ... documentation and data validation. A bare minimum would be 10 percent.
-Region 9 Quality Assurance Management Section

To illustrate how effective data validation can be in determining the quality of laboratory data, we noted that the
results of the data validation at Hunters Point and Sacramento Army Depot caused data to be rejected, making it
unusable for most significant decision-making, such as risk assessments. In fact, the problems with data quality
were so serious at the Sacramento Army Depot that, in our opinion, they compromised the final cleanup
decision.

Limited Data

Our review of 12

QAPPs at 5 DOD facilities showed that 8 QAPPs did not require a specific percentage of data to be validated
using EPA's national functional guidelines (or an equivalent).

For example, two Luke Air Force QAPPs required data validation only when "substantial quality control
problems" were found. Since no quality control problems were found, data validation was not performed until
fraud was alleged at the laboratory.

Sacramento Army Depot's Basewide QAPP also required data validation according to EPA national functional
guidelines, and called for a percentage to be set in each operational unit QAPP. However, the percentage
requirement was incorporated into only one of the three operable unit QAPPs.

Data Validation Was Deficient

We found when data validation was performed, it was not performed according to EPA national functional
guidelines, completed promptly, or performed by an independent third party.

Our review noted serious problems were overlooked when data validation did not use procedures comparable to
EPA national functional guidelines. For example, the engineering contractor for Sacramento Army Depot
advised us that some of its laboratory data was being validated. However, the OIG's Engineering and Science
staff found that data validation, comparable to EPA national functional guidelines, had not been completed.

In our opinion, this was a material quality assurance weakness. Therefore, we asked the Region to perform data
validation using EPA functional guidelines for two operable units at Sacramento Army Depot. Both of these
validations found major problems. The validation for the Burn Pits Operable Unit rejected all analyses for
volatile organic compounds for one round of sampling.

The validation for the Groundwater Operable Unit found serious deficiencies, such as missed holding times,
which compromised the laboratory's conclusions that contaminants of concern were not present. As discussed in
Chapter 3, we believe that any decision that cleanup actions are completed at the Depot should be deferred until
a positive determination can be made to the quality of the environmental data used in decision-making.

Although the Hunters Point QAPP required data validation according to EPA national functional guidelines, it
was not performed promptly.

A large number of the Hunters Point samples were taken between October and December of 1990. In January
1991, the engineering contractor started performing "cursory" validation of this data and decided the laboratory
analytical results were, "at best," estimates. In May 1992, the engineering contractor rejected all organic
analyses for one phase of the project after performing data validation according to EPA guidelines. When data
is rejected, the presence or absence of the analyte cannot be verified and the data is unusable.
In this case, well over one year passed before the data validation determined data was unusable. In our opinion,
much of the delay in determining the usability of data could have been avoided if this validation would have
been done promptly.

Another problem observed at Travis AFB was a lack of independence by the party performing the data
validation. In this case, the engineering contractor used its own laboratory. When the engineering contractor
performed data validation, it found most of the data was usable. When the Air Force's quality assurance
contractor reviewed the validation, it determined the same data was unusable. Thus, it appears the lack of
independence may have adversely affected the reliability of the data validation. A similar situation occurred at
Mather AFB where the contractor performing the data validation had used its own laboratory to complete the
laboratory analytical work.

Data validation is one of the most important quality assurance techniques in a QAPP. We are recommending
that the Region ensure the QAPP requirements for independent and prompt data validation of DOD laboratory
data, in accordance with EPA guidelines, be established at a minimum of 20 percent. This percentage was
established in the Sacramento Army Depot QAPP for the Burn Pits Operable Unit. We also noted over 20
percent data validation was performed at Travis AFB. This validation should include all matrices, analysis
types, and laboratories.

Computer Assisted Data Validation Should Be Implemented

EPA has developed a computerized data validation program called Computer-Aided Data Review and
Evaluation (CADRE). Computerized data validation is a relatively new quality assurance technique that is more
efficient than traditional manual data validation.

CADRE More Efficient

According to regional data, CADRE is much more efficient than manual data validation as shown below:

                          COMPARISON OF DATA VALIDATION METHODS
                                                 CADRE    Manual
                          Time to Validate    4 hours  35 hours
                          Turn Around Time    1 week   1 month
                          Cost to Validate    $150     $1,200

CADRE More Effective

During an in-house test, the Region found that CADRE not only identified the same problems that manual data
validation did, but was more objective and consistent. A drawback to CADRE was that, as a computer program,
it could not visually inspect raw data to identify anomalies.

We believe an electronic data validation program, such as CADRE, could be of great assistance in accelerating
DOD cleanups. Under the President's Fast Track Cleanup Program for closing and down-sizing military bases,
EPA is charged with forging a partnership with DOD that hastens cleanups. One of EPA's missions in this
program is to provide the environmental expertise to streamline the cleanup process. Consistent with its
mission, we believe the Region should ensure that DOD uses electronic validation techniques to the maximum
extent possible.

In this regard, the Region conducted CADRE training for DOD staff in April 1995. However, no one from the
Air Force attended. Further, CADRE was only distributed to the individuals attending the training.
In our opinion, QAPPs for the DOD sites should be modified to require the use of electronic validation
techniques. We recognize that an upfront investment in software may be necessary. However, we believe the
advantages of efficiently performing data validation outweigh any additional implementation costs.

"DOUBLE-BLIND" PE SAMPLES NOT REQUIRED

As discussed in Chapter 4, "double-blind" performance evaluation (PE) samples were used by the Region at
March AFB to identify poor quality laboratory data. However, only 2 of the 12 QAPPs reviewed required
"double-blind" PE sample analyses.

The PE sample results provide a point-in-time evaluation of data quality related to the program quality
assurance objectives.

-Travis AFB Model QAPP

PE samples are prepared by "spiking" a known concentration of chemicals into a contaminate-free media, such
as water or soil. A laboratory's analyses of PE samples are used to evaluate its ability to produce accurate
results.

PE samples can be administered by two methods: "blind" or "double-blind". When a PE sample is blind, the
laboratory is aware the sample is a PE, but does not know the chemical concentration levels. Since the
laboratory is aware the sample is a PE, it can make an extra effort to perform a thorough analysis.

When a sample is double-blind, the PE sample is submitted as part of a field sample shipment. In this situation,
the laboratory is not only unaware of the concentration levels, it is also unaware that the sample is a PE.
Double-blind PEs involve more logistical considerations, since the PEs must be inserted into a batch of samples
in the field, using the same sample containers and sample tags.

The [double-blind] PE samples are made to look as similar to field samples as possible, and are submitted as
part of a field sample shipment so that the laboratory is unable to distinguish between them.

-Travis AFB Model QAPP

In addition to double-blind PEs generally not being required, they were not always evaluated by a party
independent of the laboratory.

After data quality problems were found at Travis AFB, one of the QAPPs was revised to require double-blind
PE samples for each analytical method and field sampling program. According to this QAPP,

The concentrations reported for the PE samples will be compared to the known or expected
concentrations...The percent recovery will be calculated and the results assessed according to the accuracy
criteria...If the accuracy criteria are not met, the cause of the discrepancy will be investigated and a second PE
sample will be submitted.

We believe this is an excellent quality assurance technique that should be incorporated into each DOD site
QAPP as early in the project as possible.

MAGNETIC TAPES SHOULD BE AVAILABLE

None of the QAPPs required magnetic tape audits.
Magnetic tape audits are routinely conducted by EPA in monitoring its contract laboratories to assist in
determining if the laboratory is complying with the contract, the integrity of the laboratory's computer systems,
and the appropriateness of any software editing.

At the time of our review of the five DOD bases, we found that only March AFB used magnetic tape audits, as
described in Chapter 4. In this case, the laboratory provided the magnetic tapes, although not required by the
contract.

Although not suitable for all types of analytical data, we believe magnetic tape audits should be performed if
major deficiencies are found by other methods, such as data validation or performance evaluation samples.
However, in order to do so, DOD must be able to obtain the magnetic data. This means including the
requirement in the QAPP. To illustrate the importance of the requirement, we noted that for Travis AFB, the
laboratory would not provide the necessary magnetic tapes so that the Region could evaluate data quality.

LABORATORY AUDIT RESULTS NOT SHARED

All but 2 of the 12 QAPPs required some type of laboratory audit. However, none of the QAPPs required the
results of the laboratory audits to be shared with the Region.

On-site audits are designed to identify technical areas which may cause laboratories to improperly identify or
quantitate chemicals. The audits normally evaluate a laboratory's technical expertise, standing operating
procedures, facility and equipment sufficiency, and possible sources of sample contamination.

As discussed earlier in this chapter, an Air Force laboratory audit of Eureka Laboratories in January 1991 found
major problems with the Laboratory. It recommended that no further samples be sent to Eureka Laboratories.
This audit recommendation was not shared with the Region. In the future, the Region should ensure that it
obtains the most recent laboratory audits from each service as part of its oversight function.

We believe such audits are a good management technique and should be incorporated into QAPPs. In summary,
our review identified the following weaknesses in laboratory audit requirements:

                                 WEAKNESSES IN LABORATORY AUDIT
                                REQUIREMENTS FOR 5 DOD BASE QAPPS
                          Weakness                                                Sites Affected

No laboratory audit required                                      Hunters Point, Travis East Operable Unit

Audit results not required to be shared with Region 9             All

Audit not required before work is started                         Sacramento, March, Luke, Travis

Audit not conducted by firm independent of laboratory             Travis

QAPPS NOT IMPLEMENTED OR CURRENT

As described in the following chapters of this report, we found that the QAPPs were not fully implemented by
DOD. According to EPA Order 5360.1, EPA project managers are responsible for making sure QAPPs are
implemented and adhered to.

To illustrate, the QAPP for the Burn Pits Operable Unit at Sacramento Army Depot required 20 percent of the
data to be validated according to EPA national functional guidelines. We found that no data was validated. In
another example, the QAPP for Luke AFB required the engineering contractor to do a laboratory audit at least
semi-annually. We found the engineering contractor did not perform any laboratory audits.

We also found that some QAPPs were not current. For example, the Sacramento Army Depot QAPP named a
quality assurance officer that was no longer employed by the depot's engineering contractor.

It is absolutely essential that the QAPP be kept current and that all personnel involved in the work effort have a
current version of the QAPP available.

-EPA QA/R-5

DATA QUALITY OBJECTIVES WERE DEFICIENT

Data quality objectives were not sufficiently defined for four of the five DOD bases reviewed. Thus, it was
difficult to determine whether data of sufficient quality and quantity was collected to support decision making
process at these sites.

According to OSWER Directive 9355.9-01, EPA developed the data quality objective process because:

...it is the goal of EPA and the regulated community to minimize expenditures related to data collection by
eliminating unnecessary, duplicative, or overly precise data. At the same time, they would like to collect data of
sufficient quantity and quality to support defensible decision making. The most efficient way to accomplish
both of these goals is to begin by ascertaining the type, quality, and quantity of data necessary to address the
problem before the study begins.

The data quality objectives process was developed to avoid the collection of data that is inconsequential to the
decision making process. The process allows decision makers to define their data requirements and acceptable
levels of decision errors during planning, before any data is collected.

Data quality objectives are the basis for preparing the QAPP. The QAPP should show how the intended
measurements or data acquisition methods are appropriate for achieving the data quality objectives. Thus, when
data quality objectives are inadequately specified, the project runs the risk of not collecting sufficient quality
data or expending too much on sampling.

EPA guidance concerning data quality objectives was updated in 1993. However, we evaluated the adequacy of
data quality objectives using guidance prepared in 1987, since all of the QAPPs reviewed, except for the Travis
Model QAPP, were prepared before the new guidance was issued. With the exception of this QAPP and the
QAPP for Luke AFB, we found data quality objectives were not developed for each site investigation as
required.

QUALITY ASSURANCE OFFICERS NOT APPOINTED

We found that DOD did not appoint the quality assurance officers in a timely fashion and appointed one quality
assurance officer that was a contractor.

Generally, the Federal facility agreements or QAPPs required DOD to appoint a quality assurance officer to
monitor project quality. As discussed in the chapters on Travis AFB and Hunters Point Naval Shipyard, these
officers were sometimes not appointed for periods up to 3 years after the agreement was signed. In addition, we
found there was no quality assurance officer at Sacramento Army Depot.
We also noted that, in one instance, the quality assurance officer appointed was an engineering contractor. Since
the engineering contractors performed field sampling and sometimes were involved in laboratory analyses, we
do not believe that they were in a position to independently evaluate data quality. The quality assurance officer
position should be assigned to a government employee.

BEST PRACTICES

We identified some best practices with a Travis AFB QAPP which should be considered for inclusion in all
DOD QAPPs. The Travis "Model" QAPP required double-blind performance evaluation samples. It also
developed a very usable format for the quality assurance report that showed findings, corrective actions
required, and the overall effect on data quality assurance.

We also identified a Federal facility agreement for a site not included in our audit, that did a good job
specifying quality assurance requirements. This agreement, for the Marine Corps Air Station Yuma, called for
the following:

In order to provide quality assurance and maintain quality control regarding all field work and sample collection
performed pursuant to this Agreement, the Marine Corps agrees to designate a Quality Assurance Officer
(QAO) who will ensure that all work is performed in accordance with approved work plans, sampling plans,
and QAPPs. The QAO shall maintain for inspection a log of quality assurance field activities and provide a
copy to the Parties upon request.

...To ensure compliance with the QAPP, the Marine Corps shall, upon request by EPA or the State, use its best
efforts to obtain access to all laboratories performing analysis on behalf of the Marine Corps pursuant to this
Agreement. If such access is not obtained for any laboratory, EPA or the state may reject all or portions of the
data generated by such laboratory and require the Marine Corps to have the same or comparable data
analyzed by a laboratory that will grant such access.

RECOMMENDATIONS

We recommend that the Regional Administrator, Region 9:

1. Fully identify the impacts of the Eureka Laboratories fraudulent practices on Federal facility investigations,
studies, and cleanups in the Region.

2. Determine the reliability of DOD's laboratory quality assurance programs and perform sufficient oversight to
assure the quality of the laboratory data.

3. Develop a data base or tracking system for laboratory data quality at DOD facilities that identifies the
laboratory used, the quality assurance measures performed, and data quality deficiencies identified.

4. Ensure that a QAPP is prepared for each DOD site and that the QAPPs are kept current.

5. Require QAPPs to be formally approved by the Region, after review and concurrence of the quality assurance
staff. In addition, the remedial project managers should be required to document the reasons quality assurance
staff's recommendations have not been included in final QAPPs.

6. Review the DOD QAPPs at least annually and require appropriate revisions to include, as a minimum, the
following quality assurance measures:
a. The use of EPA national functional guidelines for at least 20 percent of the data representing all matrices,
analysis types, and laboratories for decision points.

b. The completion of data validation requirements by a party independent of both the laboratory and its parent
company.

c. The use of electronic data validation techniques.

7. Require the QAPPs to be amended to include the requirement for independent, double-blind PE samples.

8. Revise the QAPPs to require that magnetic data is maintained and made available to the Region. In addition,
magnetic tape audits should be required if major deficiencies are found by other quality assurance methods,
such as data validation or performance evaluation samples.

9. Improve the use of laboratory audits by amending the QAPPs to:

a. Require laboratory audits to be done before work is started and periodically throughout the project.

b. Specify that the audits will be conducted by an activity independent of the laboratory.

c. Require the laboratory audit results to be provided promptly to the Region.

10. Ensure the QAPPs are fully implemented by DOD facilities. In making this determination, the Region
should obtain appropriate supporting documentation from the Federal facilities to substantiate their actions.

11. Make sure reasonable data quality objectives are included for each site investigation.

12. Ensure quality assurance officers are appointed in a timely manner and that they are government employees.

13. Publicize best practices used in DOD QAPPs and Federal facility agreements to make remedial project
managers and quality assurance managers aware of them.

REGION 9 COMMENTS AND OIG EVALUATION

The Region did not respond to the specific recommendations, but said it was pursuing the following actions:

1. Region 9 has recently and will continue to seek to require federal facilities, through our comments on their
Quality Assurance Project Plans (QAPjPs), to follow the Agency's Data Quality Objective Process for
Superfund Interim Final Guidance dated September 1993. Region 9 will also ensure that, whenever possible,
numeric data quality objectives on precision, accuracy, completeness, and detection limits are set prior to the
approval of each QAPjP.

2. The OIG draft report found that data validation comparable to the EPA National Functional Guideline was
not performed at DOD sites. The Region has requested that several NPL federal facilities submit representative
data packages to EPA. Region 9 will perform our standard data validation on these packages using EPA's
Functional Guidelines for Data Validation. The data packages not containing sufficient analytical deliverables
and all other data quality problems associated with the other data packages will be identified to DOD for action.

3. The Region has been working with DOD for the last 3 years to raise awareness of the quality assurance
problem and to help define an improved DOD quality assurance program that will meet or exceed our minimum
standards. We will continue to participate in these efforts. As part of this effort, the Region will continue to
encourage DOD facilities to develop and implement, as part of their own quality systems, a self sufficient
performance evaluation program, and will seek to require DOD to submit PE study results to EPA. The Region
plans to score and validate as many PE sample results as our limited resources allow and will make
recommendations to DOD on follow up corrective actions when necessary.

4. In addition to recommending that the Federal facilities conduct PE samples, recently, Region 9 QAMS has
conducted performance evaluation samples for on-site and off-site labs at MCA Tustin (monthly), Yuma MCA
(twice), George AFB, McClellan AFB (twice), and March AFB. Additional performance evaluation activities
are planned.

5. Through the review of work plans and QAPjPs, the Region will seek to require DOD facilities to perform
both pre-award and routine audits of their contract labs. We will also seek to require federal facilities to
furnish all audit reports to EPA.

6. Through the review of work plans and QAPjPs, the Region will seek to require DOD facilities to address how
they will ensure the authenticity of the data. At a minimum, we will seek to require that all organic data for GC
and GC/MS magnetic tapes be archived and available to DOD and EPA upon request. This action would
provide a strong deterrence to the fraudulent activities and any poor quality laboratory performance that have
been observed in the past. Region 9 QAMS has conducted magnetic tape audits on March AFB, Travis AFB,
Luke AFB, and Yuma MCA. Additional tape audits will be conducted as resources allow. The Region is
committing resources for purchasing equipment necessary to develop a regional tape audit capability, and will
suggest DOD do the same.

7. Region 9 and OERR provided training of the use of the Computer Assisted Data Review and Evaluation
(CADRE) software on April 10-13, 1995 to the U.S. Army Corps of Engineers, the U.S. Navy and their
contractors. An additional CADRE training sessions will be provided to the U.S. Air Force later this fall. Since
the first training, QAMS has continued to distribute copies of CADRE and technical assistance to the attendees.
QAMS received confirmation that the Army and Navy will begin to implement data validation using CADRE on
a number facilities. Implementation of CADRE would help remediate vulnerability regarding data quality
deficiencies identified in the IG report.

8. As appropriate, the Region will seek modifications by DOD of their previously approved QA Plans still in use
to incorporate the IG comments regarding data quality objectives, data validation, the use of PE samples, etc.

9. One of the IG concerns is that federal facilities have not followed the requirements set forth in FFAs and
approved QAPjPs. The Region's QAMS has developed a QA check list to assist the remedial project managers
in their oversight of the quality system at federal facilities. The QA checklist can be used during the Technical
Review Committee meetings to ensure that federal facilities comply with the requirements in the approved
QAPjPs and appropriate oversight follow up is conducted.

10. The Region is exploring the idea of providing training for federal facilities and their contractors that would
aim at improving DOD's overall quality systems, their reporting, development of expertise in the data quality
objectives process, and managing DOD's contractors' laboratories.

The Region also indicated that:

Its staff were informed and directed to discuss with DOD officials the extent of Eureka's use at DOD sites, and
to assess the criticality of this particular data to remedy selection at the site.

It agreed that "some" tracking system for data quality at Federal sites should be in place.
The Navy was revising the Hunters Point Naval Shipyard QAPP for use in the groundwater monitoring
program.

OIG Evaluation

We accept the Region's comments as a strong commitment to improve the QAPPs, and related data quality
oversight at DOD activities. Since the response to the draft report did not specifically address each
recommendation in the draft report, the recommendations must be addressed during the final audit resolution
process.

                                                   Chapter 3
                                             Sacramento Army Depot

SUMMARY

We found the Region had performed virtually no data quality oversight at the Sacramento Army Depot (the
Depot) since 1992. As a result, the environmental data obtained for the Depot Superfund site was of unknown
quality because: (i) the data packages the laboratories provided were insufficient to verify the quality of the
analyses; and (ii) analyses were not validated using EPA national functional guidelines. Also, in some instances,
environmental data used in the decision-making process was subsequently rejected due to unacceptable quality.

The overall quality objectives for the...QAPP...[are] to obtain data that are scientifically and legally defensible...

-Sacramento Army Depot Quality Assurance Project Plan

As a result, we believe any decision that cleanup actions are completed should be deferred until a positive
determination can be made to the quality of the environmental data used in decision-making. This includes the
Region reevaluating its June 1994 certification that the Depot's Tank 2 Operable Unit was cleaned up. Until the
reevaluation is completed, the Army should be informed the certification is being withdrawn. Further, we
recommend that the Depot's QAPP be revised to better oversee laboratory quality for the remainder of the
cleanup effort.

BACKGROUND

The Depot, located in Sacramento, California, is a nearly 500-acre former military operation that was
established in 1945. The Depot handled communications equipment and supplies. Operations at the Depot
involved the use of solvents, oils and grease, fuels, caustic solutions, and metal-plating baths. The Depot was
closed in March 1995. Part of the Depot property has already been transferred to the City of Sacramento.

The Depot was added to the NPL in 1987. EPA, the Depot, and the State of California entered into a Federal
facility agreement to investigate and cleanup the site in 1988. In January 1995, a Basewide record of decision
was agreed to by the Army, State of California, and EPA to cleanup both the soil and groundwater at the Depot.
The record of decision was completed more than a year ahead of schedule.

Depot Includes Four Operable Units

The schedule below shows the Depot's four operable units and the type of contaminants found.

            Operable Unit                                         Contaminants of Concern
Burn Pits                                 Volatile organic compounds, metals
Tank 2                                    Volatile organic compounds
Groundwater                               Volatile organic compounds
Oxidation Lagoons                         Metals

NO QAPP FOR GROUNDWATER OPERABLE UNIT

QAPPs were prepared for 3 of the 4 operable units, and a Basewide QAPP was prepared. However, a QAPP
was not prepared for the Groundwater Operable Unit, even though one was required by EPA Order 5360.1.
While there was a "monitoring plan" for the Groundwater Operable Unit, it was not subject to the same
requirements as a QAPP. For example, EPA has responsibility for ensuring that a QAPP is implemented, but
there is no similar requirement for a monitoring plan.

QAPP APPROVAL PROCESS DEFICIENT

We noted there were no documented regional approvals for the QAPPs for the Oxidation Lagoons or Burn Pits
Operable Units. Such approvals are important to ensure that the approved version of the QAPP is being used.
We also found that recommendations made by the Region's Quality Assurance Section, including one calling
for the preparation of a QAPP for the Groundwater Operable Unit, were not followed. The Region's files did not
document why this recommendation was not followed.

QAPPS DATA VALIDATION REQUIREMENT NOT MET

The Depot's Basewide QAPP required data validation according to EPA national functional guidelines. The
percentage of samples requiring validation was to be incorporated into the operable unit QAPPs. Our review
disclosed that three of four operable units had no percentage requirement for data validation in the QAPP or
monitoring plan. Only the Burn Pits Operable Unit had a percentage requirement.

A percentage of all samples will be subjected to a complete statistical data validation procedure. The samples
selected for the statistical analysis will be those that are nearest to the anticipated boundaries of contamination.
Valid data will be used to evaluate whether the [data quality objectives] of the QAPP have been met.

-Basewide QAPP,

Sacramento Army Depot

DATA OF UNKNOWN QUALITY

EPA Order 5360.1 requires data to be of known quality, verifiable, and defensible. In our opinion, the
laboratory data at the Depot was of unknown quality for several reasons.

Data Packages Are Insufficient

The OIG Engineering and Science Staff (ESS) determined the data packages that the laboratory provided to the
Depot were insufficient to perform data validation in accordance with EPA national functional guidelines. One
of the key items not provided by the laboratory were detailed equipment calibration records. These records are
needed to perform data validation using EPA guidelines.
Although planned, data validation comparable to [EPA's] National Functional Guideline data validation has not
ever been completed at the Depot. In addition, the data packages that the contractor required of the analytical
laboratories are insufficient to perform EPA data validation.

-EPA OIG's Engineering and Science Staff, June 2, 1995

The data packages needed for data validation are normally called EPA Level IV data packages. (See Appendix
F for an explanation of data package levels.) Without a Level IV package, it is not possible to confirm that the
laboratory even performed the analyses.

Data Not Validated

The Depot's engineering contractor advised us that it had validated some of its contract laboratory data.
However, the OIG ESS found it had not. In fact, we were not able to document any data validation performed
by the Army or EPA that was comparable to EPA national functional guidelines for any of the operable units.

Samples Related to Tank 2 Cleanup

The Region accepted that the Tank 2 cleanup was complete in June 1994. As noted above, we determined that
there was no documentation that data validation was performed in accordance with EPA national functional
guidelines. However, we were advised that 12 "confirmation" samples were used to determine the Tank 2
Operable Unit cleanup had been completed. We subsequently determined that these samples had not been
validated.

According to 1988 regional guidance, data validation is required for determining if cleanup is complete. In a
May 1993 technical review committee meeting, the Depot agreed to validate 6 of the 12 confirmation samples.

Both the Corps, who administered the Depot's contracts, and the Region's project manager were under the
impression that data validation had been performed by the Depot engineering contractor. However, when we
asked for the data validation report, we found that the data validation was never completed.

The OIG ESS found the data package submitted by the laboratory was incomplete for data validation using EPA
national functional guidelines. For example, the package did not include critical information for calibrations and
performance check samples. Further, the OIG ESS determined that the concentration units were consistently
reported wrong. Specifically, the soil sample results were incorrectly reported in liquid concentrations.

The Region's determination that the Tank 2 Operable Unit cleanup was complete only referenced the 12
confirmation samples. However, in response to our concerns about the lack of the data validation report, the
Region advised us it had considered other data, such as contaminant removal rates, to determine the cleanup
was complete. Further, the Region stated that it was working with the Depot to validate the confirmation
samples to the "extent feasible."

The data must be evaluated per EPA's functional guidelines. It is not acceptable to take the data at face value
without additional validation.

-Region 9 discussing the requirements for cleanup completion of the Tank 2 site with Sacramento Army Depot
officials, May 25, 1993

In our opinion, and consistent with the requirements agreed to by the Depot, the sample analyses were of
unknown quality without data validation. Consequently, its analyses did not meet the requirement for
determining that the cleanup is complete.
Request for Regional Review

Because of the lack of data validation and its impact on the status of this NPL site, we asked the Region to
perform data validation using EPA guidelines for two operable units at Sacramento Army Depot, the Burn Pits
and Groundwater Operable Units.

Burn Pits Operable Unit Data Rejected

Data validation for the Burn Pits Operable Unit found that volatile organic compound laboratory analyses had to
be rejected. In this respect, the Region's quality assurance staff performed a validation of 33 selected samples
from the 137 samples included in the March 1991 round of sampling at the Burn Pits. In a letter to us dated May
19, 1995, the Region's quality assurance staff's validation found that:

The sample results [for volatile organic compounds] are rejected due to serious deficiencies in the ability to
analyze the sample and meet quality control criteria. The presence or absence of the analyte cannot be verified.

The 33 samples selected from the March 1991 sampling round were critical to the cleanup decision making
process at the site. These samples were used in the public health risk assessment, the remedial investigation, the
feasibility study, and the record of decision. The data was also used to decide the contaminants of concern,
determine the cleanup levels for the contaminants, and to select the cleanup remedy. Further, the OIG ESS
concluded that all 137 samples taken in March 1991 should be rejected because of a defect in the sampling
technique. Specifically, the samples were not segregated into appropriate containers.

Groundwater Operable Unit Data Validation Finds Problems

The Region's quality assurance section found serious problems in its validation of the volatile organic
compound data for the Groundwater Operable Unit including:

Missed holding times on three samples, possibly causing false assumptions that contaminants were absent
("false negatives"), or biasing the minimum values of all compounds; and,

Unacceptable calibrations impacting numerous compound analyses, including one contaminant of concern in all
samples, and another contaminant of concern in 10 samples.

As a result, the samples could not be used to determine how much contamination was present or whether some
contaminants of concern were absent. This was significant, since most of the sample analyses showed that
contaminants were not present. Because the samples were used in the decision-making process, including
determination of the cleanup levels and selection of the cleanup remedy, it is important that accurate sample
analyses be obtained.

QUALITY ASSURANCE PROJECT PLANS CAN BE STRENGTHENED

In addition to correcting the weaknesses relating to data validation, the Depot's QAPPs could be strengthened to
improve the opportunity for quality data. This could be done by: (i) using double-blind performance evaluation
(PE) samples; (ii) requiring that laboratory audit results be provided to the Region; (iii) requiring the
laboratories to provide electronic data information; and (iv) identifying site specific data quality objectives.

Double-Blind PE Samples Not Used

Neither the Region nor the Army used double-blind PEs at Sacramento Army Depot to evaluate the quality of
data. Double-blind PE samples were successfully used to detect laboratory analyses problems at the March Air
Force Base NPL site, as discussed in Chapter 4. Further, the Travis Air Force Base Model QAPP required the
Air Force to use double-blind PEs.

Laboratory Audit Results Not Provided To Region 9

We believe laboratory audit results should be available to the Region. According to the Basewide QAPP, a
laboratory audit was to be performed at the beginning of the project, and each time a data set was received.
However, the QAPP did not require the audit results to be provided to the Region, and the Region was not
receiving the results. In our opinion, this is not consistent with EPA guidance which requires that the Region
verify the QAPP implementation. Further, had these results been made available to EPA, it would have detected
these to problems at the laboratories performing analysis of Depot samples.

Corps Laboratory Inspections Find Problems

Generally, we found the Corps, who administered the engineering contract, performed a laboratory inspection
before a laboratory was used. These inspections were normally not as thorough as audits. While they did
disclose deficiencies, they were not a substitute for audits. However, the results of these inspections were not
provided to EPA, although they disclosed major deficiencies that may have impacted data quality.

For example, a Corps May 1992 inspection of the laboratory that analyzed the Tank 2 Operable Unit
confirmation samples found:

There was one major and 3 minor deficiencies noted during the lab inspection. The major deficiency noted
during the lab inspection pertained to traceability. There was a consistent absence of initialed and dated
reagents, log book entries and standards and spiking solutions ...minor deficiencies...included...lack of
consistent measurement and recording of storage temperatures and a lack of consistent calibration of analytical
balances.

The laboratory inspector recommended that any further validation for tank work be handled by the Corp's
Sacramento District.

[The] lab has documentation problems...[and] QC [quality control] problems with temperatures and balances.

-Army Corps Inspection Report,

May 27, 1992

A Corps August 1992 inspection of the laboratory that performed the groundwater analyses found:

One major deficiency that would adversely affect [the laboratory's] ability to conduct the required chemical
determinations was noted during the inspection.

This major deficiency dealt with a retention time window being incorrectly set. Nine minor deficiencies were
also disclosed noting problems such as retention time calculations not performed in accordance with method
protocols. The report stated that these deficiencies could adversely affect the laboratory's ability to conduct the
required analyses.

[Retention time] windows have been corrected, ...74 previously reported samples may have been affected by
this error.

-Army Corps of Engineers Inspection,
September 1, 1992

We also could not find any evidence that the Corps performed a laboratory inspection each time a data set was
received, as required by the QAPP.

Magnetic Tapes Not Required

The QAPPs did not require the laboratory to provide electronic data, such as magnetic tapes of raw data, needed
to perform audits. Magnetic tape audits were instrumental in detecting laboratory fraud at March Air Force
Base, as discussed in Chapter 4.

...[Data quality objectives] were not adequately addressed in either the basewide QAPP or in either of the
[other] QAPPs reviewed.

-OIG Engineering and Science Staff, June 2, 1995

Site Specific Data Quality Objectives Not Provided

The QAPPs did not present any site specific data quality objectives. Data quality objectives are the basis for
determining the level of quality assurance activities.

QUALITY ASSURANCE OFFICER NOT REQUIRED

The Federal facility agreement did not require a quality assurance officer. We recognize this is not a mandatory
requirement, but believe it would help affix DOD responsibility for data quality.

While the QAPP identified a quality assurance officer, the individual named worked for a subcontractor that
was no longer employed by the Depot's engineering contractor.

IMPACTS AT SACRAMENTO ARMY DEPOT

According to State and Army personnel, it is anticipated that the Depot will be taken off the NPL within two
years. OSWER Directive 9320.2-3A, specifies that a Superfund site is considered completed when all cleanup
actions identified in the record of decision have been successfully implemented and cleanup levels have been
achieved. Only after the satisfaction of this requirement can a close out report be prepared. A closeout report is
required before a site can be deleted from the NPL.

In view of the data validation problems noted in our review, and the general absence of other validated data, it is
our opinion the Depot cleanup should not be considered complete until a positive assurance can be provided
that the data was of sufficient quantity and quality to support the decisions made.

RECOMMENDATIONS

We recommend that the Regional Administrator, Region 9:

1. Inform the Army that the cleanup certification for the Tank 2 Operable Unit is being withdrawn until the
required data validation is performed.

2. Require all environmental data used for decision making to be validated using EPA national functional
guidelines.
                  Note: Additional recommendations are addressed in Chapter 2 of this report.

REGION 9 COMMENTS AND OIG EVALUATION

The Region generally agreed with the recommendations and provided the following comments:

Sacramento Army Depot has agreed to resample the Tank 2 Operable Unit and perform the necessary data
validation on the new samples. We propose advising the Army that if resampling indicates that cleanup levels
have not been achieved, EPA will withdraw its cleanup certification and additional remediation will be
required.

Concur with the recommendation; however, we would prefer that the recommendation would be flexible enough
to allow for a cost-effective approach to the validation of all previous data. We suggest that the
recommendation read: "Require the Army to develop and implement an-EPA approved plan to validate
previous data used for decision making using EPA national functional guidelines or equivalents."

OIG Evaluation

The Region's response meets the intent of the recommendations.

                                                  Chapter 4
                                             March Air Force Base

SUMMARY

Despite objections raised by the Region, the engineering contractor for the AFB cleanup hired Eureka
Laboratories in 1992 to analyze samples for part of the NPL site cleanup. Subsequently, in late 1993, the
Region rejected $1 million worth of Eureka Laboratories analyses. This action delayed the project by about 1
years. In December 1993, EPA suspended the laboratory from further Federal procurement actions, and in May
1995, the laboratory pleaded guilty to criminal charges that its test results were falsified.

Our audit noted that the QAPPs for March AFB did not contain the primary techniques eventually used by the
Region to detect the laboratory fraud. These techniques included a laboratory audit before the start of sampling
and that magnetic tapes be provided upon request.

We believe that Eureka Laboratories probably would not have been used, if the laboratory audit had been
required before the start of sampling. This belief is based on the fact that a 1991 Air Force laboratory audit of
Eureka Laboratories under another project recommended that samples not be sent to Eureka Laboratories.

BACKGROUND

March AFB covers 7,100

acres near Riverside, California. It served as a training, bomber and air-to-air refueling operations base.
Contaminants include heavy metals and volatile organic compounds, such as benzene. The base was listed on
the NPL in 1989. The Air Force, the Region, and the State of California signed the Federal facility agreement
for the cleanup in September 1990. Under the agreement, there is a Basewide QAPP and QAPPs for the base's
three operable units. A Basewide remedial investigation and feasibility study report was due in August 1995.
The Air Force Center for Environmental Excellence (AFCEE), in San Antonio, Texas issued most of the NPL
site related contracts for March AFB.
DATA PROBLEMS FOUND BY REGION 9

Although the AFCEE decided to use Eureka Laboratories in spite of warnings from the regional staff, the
Region deserves credit for taking aggressive actions to minimize project set backs caused by the laboratory's
deficient work.

The Region learned that the Air Force planned to use Eureka Laboratories in early 1992, after EPA received the
Air Force's QAPP for Operable Unit 2. The QAPP identified Eureka Laboratories as the contractor for the
sample analyses.

Use of Eureka Laboratories Discouraged

Because another EPA Region had experienced problems with Eureka Laboratories, the Region verbally
recommended that Eureka not be used. However, the Region's advice was not heeded. Instead, the AFCEE
decided that it would continue to use Eureka Laboratories, along with two other laboratories, for laboratory
analyses at Operable Unit 2.

The Region, sensitive to the potential problems associated with Eureka Laboratories, approved the Operable
Unit 2 QAPP in August 1992 after deciding to use double-blind PE samples as part of its quality assurance
oversight. The use of PE samples and subsequent regional audits of magnetic tapes from Eureka Laboratories
disclosed that the laboratory work was deficient and fraudulent work was pervasive. This led to Eureka
Laboratories pleading guilty to falsifying test results and two of its chemists being convicted of fraud in May
1995.

A Sacramento laboratory [Eureka Laboratories] admitted it routinely falsified results of water, soil and air
tests done for the government to determine levels of pollutants and toxins at some of the worst hazardous waste
sites in the country.

-Sacramento Bee

May 2, 1995

Meanwhile, EPA rejected all sample analyses work performed by Eureka Laboratories at the base. By January
1994, the Air Force had developed a corrective action plan for replacing the rejected data.

QUALITY ASSURANCE PROJECT PLANS WERE INADEQUATE

While the Region's oversight at March AFB was successful in detecting the problems with Eureka Laboratories,
we concluded that the Basewide QAPP and Operable Unit 2 QAPP were inadequate to detect the problems.
Specifically, the QAPPs did not require:

the use of PE samples;

the submission of magnetic tapes of raw data;

a laboratory audit before any analysis work began or that subsequent laboratory audits be provided to the
Region; and,

the performance of data validation in accordance with EPA's national functional guidelines.
Further, we found that the QAPPs were not revised after the data problems were found. In addition, there was
no record that the Basewide QAPP had been approved by the Region.

We also found that data quality objectives, which were the basis for determining the level of necessary data
quality, were not sufficiently established in the QAPPs.

Performance Evaluation Samples Not Required

Neither of the QAPPs required the Air Force to use PE samples to judge laboratory quality. Instead, the QAPPs
said that the laboratory will "participate" in PE sample programs, and that the results will be made available
during audits.

Magnetic Tapes Not Provided

The QAPPs did not require the laboratory to provide electronic data, such as magnetic tapes of raw data, needed
to perform audits of the validity of the data. Magnetic tape audits were instrumental in the Region's detection of
the Eureka Laboratories fraud.

Laboratory Audits Not Required

The Region did not require a laboratory audit before a laboratory was used. While laboratory audits are not
always required by QAPPs, they have been effectively used in reviewing a laboratory's procedures. In our
opinion, Eureka Laboratories probably would not have been selected if the Region would have required an audit
before the laboratory was used.

Instead of requiring an audit before selection of a laboratory, the QAPPs required the engineering contractor to
perform one laboratory systems audit during the project. We consider this a weak quality assurance measure
because it does not ensure that a laboratory is capable of the required analyses before work was performed. In
addition, the QAPPs did not require the results of the audit to be submitted to the Region.

As previously noted, AFCEE contracted for a laboratory audit of Eureka Laboratories in 1991 under another Air
Force project. The audit found major problems and recommended that no samples be sent to Eureka
Laboratories for analysis. In February 1992, and again in October 1992, followup reviews by the AFCEE
contractor found

many of the problems discovered in the 1991 audit remained unresolved. It was during this time frame that the
QAPP for Operable Unit 2 was submitted to EPA for approval. The QAPP named Eureka Laboratories as the
laboratory which would perform the sample analyses for Operable Unit 2. The sample analyses commenced in
August 1992. During our discussions, AFCEE representatives were unable to explain why Eureka Laboratories
was used at March AFB, when the laboratory audit recommended against sending samples to Eureka.

[The contractor] recommends that no further samples be sent to Eureka until the aforementioned corrective
actions have been completed.

-AFCEE contractor

February 11, 1991

No Data Validation
The QAPPs did not require that data validation be performed in accordance with EPA's national functional
guidelines. The QAPPs merely cited that there would be data validation "where applicable." However, they did
not define where it was applicable or what percentage of the total samples analyzed would be validated. In
addition, the QAPPs did not require the submission of detailed supporting sample documentation, known as
"Level IV" data packages. These packages were necessary to perform data validation according to EPA national
functional guidelines.

Failure to Establish Data Quality Objectives

Adequate data quality objectives were not established in the QAPPs, although they are the basis for determining
the level of quality assurance activities. Specifically, the data quality objectives were necessary to:

Establish objectives for each type of data collection and analysis effort; and

Identify when "Level IV" data packages were needed. The Region recognizes that some "Level IV" data is a
necessary prerequisite for data validation.

Additional Costs and Delays Associated With Rejected Work

March AFB officials advised us that it paid Eureka Laboratories about $1 million for the laboratory analyses
which were rejected. An additional $250,000 was expended for resampling. All but $60,000 of this amount was
paid for by the engineering contractor. Further, because of the deficient and fraudulent laboratory analyses, the
due date for the Remedial Investigation Report slipped from January 11, 1994 to April 10, 1995. Thus, the
remedial investigation was delayed at least 1 years.

RECOMMENDATIONS AND REGION 9 RESPONSE

Our recommendations are addressed in Chapter 2 of this report. The Region's complete response to this chapter
and our evaluation of the response are included as Appendices A and B of this report.

                                                  Chapter 5
                                             Travis Air Force Base

SUMMARY

After the Federal facility agreement was signed in 1990, the Air Force selected Roy F. Weston, Inc. (Weston) as
the engineering contractor for the basewide remedial investigation and feasibility study. In 1991 and 1992,
Weston completed three rounds of sampling to determine the extent of contamination at Travis AFB. The
samples were sent to its own laboratories for analyses.

In January 1992, an Air Force laboratory audit of one of Weston's laboratories found major problems with its
analytical practices. Because of the analytical problems, the Region determined that about $2 million of
Weston's analyses were of unknown quality. In addition, because of these problems, one of the operable units
has experienced a cleanup delay of more than 2 years.

We found the QAPP was not designed to detect the laboratory problems. After the data problems were
disclosed, the Air Force developed two new QAPPs for Travis AFB. These QAPPs included many of the key
data quality assurance ingredients missing from the original QAPP. However, in our opinion, the new QAPPs
could be strengthened to improve the quality of laboratory analyses.

BACKGROUND
Travis AFB is located about 45 miles southwest of Sacramento, California, and covers over 5,000 acres. Its
primary mission is to provide worldwide airlift capacity for cargo and troops.

Contaminants include volatile organic compounds, heavy metals, and polynuclear aromatic hydrocarbons. The
base was listed on the NPL in 1990.

After the Federal facility agreement was signed in September 1990, the base was set up as one operable unit,
and a basewide QAPP was prepared. The Air Force Center for Environmental Excellence (AFCEE) in San
Antonio, Texas contracted with Weston to perform the remedial investigation and feasibility study. A
subsequent AFCEE laboratory audit of one of Weston's laboratories disclosed major problems, which led to the
Region's July 1993 determination that the data analyses were of unknown quality.

Operable Units

In 1993, after data problems were found, Travis AFB was divided into four operable units covered by two
QAPPs as shown below:

REVISED QAPPS



Operable Unit                               QAPP

East Insustrial                       East Industrial QAPP

North                                 Model QAPP

West Industrial                       Model QAPP

West, Annexes, and Basewide           Model QAPP


A remedial investigation has not been completed for any of the operable units as of June 1995.

Weston is the prime contractor for the East Industrial Operable Unit, but no longer uses its own laboratories for
sample analyses. Two other engineering contractors are doing investigative work at the other three operable
units.

AFCEE administers the contracts for both the North and West Industrial operable units. The Sacramento
District of the U.S. Army Corps of Engineers administers the contracts for the East Industrial, and West,
Annexes, and Basewide operable units.

DATA PROBLEMS ENCOUNTERED

Weston performed sampling in June 1991, November 1991, and March 1992. Weston's laboratories in Stockton,
California and Lionville, Pennsylvania were used to analyze the samples. The following events led to the
Region's determination that the laboratory analyses were of unknown quality:

In January 1992, an AFCEE laboratory audit of the Stockton laboratory found major problems. The laboratory
audit identified that instruments were not properly calibrated and acceptable laboratory quality control
procedures were not followed.

It was not until September 1992, nearly 9 months later, that the Air Force notified the Region of the potential
data problems. This was about the same time that Air Force officials met with Weston to discuss the data
problems and determine what should be done to salvage the data. One of the decisions that came out of this
meeting was that Weston would validate its own data according to EPA national functional guidelines, instead
of having an independent third party do this. As discussed in this chapter, we consider this approach inadequate.

The consensus was to have Weston...conduct a validation process...A validation by another third party would be
too long, too costly, too involved, and unnecessary because of the integrity expected from Weston.

-Minutes of September 25, 1995 meeting between the Air Force and Weston

In July 1993, the Region determined that the quality of the data was unknown and could not be used for its
intended purpose.

QUALITY ASSURANCE PROJECT PLANS ARE DEFICIENT

Our review disclosed that the original QAPP was inadequate to detect the above cited laboratory problems.

After the base was divided into four operable units, two new QAPPs were developed to replace the original
QAPP. In our opinion, the East Industrial QAPP omitted several important quality assurance features. We
concluded that the Model QAPP is the most comprehensively designed QAPP for any of the five bases included
in our audit. The strengths and weaknesses of the original QAPP and the new QAPPs are summarized below
and discussed in detail in the ensuing paragraphs.

DATA QUALITY ASSURANCE ITEMS IN QAPPS




Data Quality                Original     East OU       Model

Assurance Item                QAPP          QAPP         QAPP



Double-Blind Performance                                       X

Evaluation Samples



Independent

Laboratory Audits



Data Quality Objectives                                        X



Data Validation According                          X           X

to EPA Guidelines



Magnetic Data Required
Upon Request



Format for Quality                                            X

Assurance Report




          X - Item is adequately described in QAPP.


ORIGINAL QAPP INADEQUATE

As explained previously, the original QAPP was not adequately designed to detect serious data problems. In
addition, we found Weston made changes to the QAPP without the approval of either the Air Force or EPA.

Laboratory Audit Requirement Was Insufficient

The original QAPP did not contain an adequate requirement for laboratory audits. Specifically, the QAPP did
not require an independent laboratory audit, but instead provided that the audit would be performed by Weston.
In our opinion, this resulted in a conflict of interest situation, since Weston would be reviewing its own data.
Further, the QAPP did not establish any procedures for the Air Force to review the Weston audits. Moreover,
we could find no evidence the audits were performed.

Even though external laboratory audits were not required under the QAPP, the Air Force contracted for audits
of Weston's Lionville, Pennsylvania and Stockton, California laboratories in the summer of 1990. The audits
were initiated before the sampling started at Travis AFB in June 1991.

The audits found the laboratories had not fully implemented in-house control limits. These control limits are
needed to ensure that data is of known quality, and is produced throughout the sampling and analysis programs.

The laboratory audits concluded that the in-house control limits must be in use by the fourth quarter of 1990.
The contractor reaudited both laboratories in 1992, and found the control limits were still not being used for all
methods of analyses. Even though the control limits were not established at either laboratory, the Air Force
continued to submit samples to both Weston laboratories.

In-house control limits for both precision and accuracy must be in use by the fourth quarter of 1990 as
projected.

- Air Force contractor

August 13, 1990

The Air Force contractor's reaudit of Weston's Stockton laboratory in January 1992 also found other major
problems. The contractor recommended that no more samples be sent to the laboratory until Weston
implemented an effective laboratory quality control system, and had demonstrated that it was capable of
ensuring the quality of data. The Air Force did not follow the contractor's audit recommendations, and Weston
initiated its third and final round of sampling in March 1992.
Since the Air Force was not providing the results of its laboratory audits to EPA, the Region was unaware of the
problems. If the information had been available, the Region would have had a sufficient basis to prevent Travis
AFB from submitting the final round of sampling analyses to Weston's Stockton laboratory.

Split Sampling Used By EPA to Find Problems

The original QAPP did not require split sampling, a technique where identical samples are sent to two different
laboratories for analysis and the results are compared. However, the Region performed some split sampling in
June 1991, during the first round of Weston's sampling. Unfortunately, the Region did not compare the results
of the split sampling until June 1993. The results found major problems.

The results reported by EPA and Travis AFB for both soil and groundwater samples show almost no
correspondence, particularly for metals.

- Report on Comparison

of Split Samples

June 18, 1993

If the sample comparison had been done promptly, the Region would have known about the data problems early
enough to have avoided sending one or both of the remaining two rounds of samples to Weston's laboratory for
analysis.

Data Validation Not Done

The original QAPP did not have a firm requirement for independent data validation. The QAPP stated the data
would be reviewed according to EPA national functional guidelines, but did not:

Establish how often the data validation would be performed;

Require an independent third party to perform the validation; and

Require the necessary analysis documentation, known as EPA Level IV data packages. These packages are
necessary to perform data validation in accordance with EPA national functional guidelines.

As a result, the initial data validation, performed by Weston's in-house staff in October 1992, determined that
the data was usable for its intended purpose. The Air Force quality assurance contractor reviewed Weston's
validation report and found major problems that made much of the data unusable.

The analytical data from Weston are insufficient to conduct an EPA Level IV Review.

- EPA contractor's review

of Weston's data validation

January 27, 1993

Data Quality Objectives Not Specific
Data quality objectives were not established for each type of data collection and analysis effort. Further, the
objectives did not specify the data package requirements necessary to complete data validation by EPA national
functional guidelines.

Performance Evaluation Samples Not Done

The original QAPP requirement for PE samples called for Weston's laboratory quality assurance coordinator to
provide double-blind PE samples to its own laboratories at least semi-annually. While Weston did not provide
the PE samples to its laboratories, we also consider this quality assurance procedure inadequate for two reasons.

First, PE sample evaluations should have been provided and judged by an activity independent of the
laboratory. Second, there should have been a requirement to submit the PE results to either the Air Force or the
Region.

No Requirement to Provide Magnetic Tapes

The original QAPP did not require Weston to provide electronic data, such as magnetic tapes of raw data,
needed to perform audits. We were advised that Weston refused to provide the magnetic tapes when they were
requested by the Region. It should be noted that magnetic tape audits were instrumental in detecting the fraud at
Eureka Laboratories, as discussed in Chapter 4.

QAPP Revised Without Approval

We also noted that Weston made changes to the original QAPP without Air Force or the Region's approval.

Weston requested QAPP deviations from the Air Force involving evaluating data for usability instead of
rerunning data and widening criteria. Weston apparently assumed the deviations had been approved based upon
discussions with AFCEE chemists. However, deviations from the approved QAPP had not been formally
approved.

Variances requested by Weston have not been approved in writing and can't be until they can be justified to the
regulators.

- Minutes of meeting between

Air Force and Weston

October 6, 1992

MODEL QAPP IMPROVED

Travis AFB finalized, in May 1994, a Model QAPP for three operable units. The Region did an excellent job of
ensuring most of the key ingredients for data quality assurance were both included in this QAPP, and complied
with. The only two quality assurance activities that we believe could have been added to ensure the data quality
were:

provisions for independent laboratory audits before samples are provided, and

access to magnetic tapes.

Best Practices
The Model QAPP incorporated most of the items that we believe are critical to ensuring data quality. It
adequately defined data quality objectives, and required double-blind PE samples and data validation. It also
required that data quality assurance reports be provided for EPA review.

Our review of PE samples for the North Operable Unit showed Travis AFB performed the required PE samples.
We also reviewed data validation requirements for the North and West Industrial Operable Units and found
about 20 percent of the samples were being validated. Further, an independent third party was performing the
data validation.

Quality Assurance Report Is Meaningful

The Model QAPP established an effective format for the quality assurance report. The report showed the results
of the PE samples, laboratory audits, and data validation. The report included information on the findings,
corrective actions required, and the effects on data quality assurance. The report was included with the remedial
investigation reports for EPA's review.

EAST INDUSTRIAL QAPP DEFICIENT

After the data problems became known, Travis AFB developed a QAPP for the East Industrial Operable Unit.
Although the QAPP satisfied the documentation requirements for data validation using EPA national functional
guidelines, many of the problems with the original QAPP remained.

The East Industrial Operable Unit QAPP, like the original QAPP, did not require:

Independent laboratory audits;

PE samples (although it noted that PE samples are an additional type of independent quality control);

The laboratory to provide electronic data, such as magnetic tapes of raw data, needed to perform audits.

We also noted the QAPP did not identify data quality objectives for each data collection activity.

However, the QAPP did require third-party data validation according to EPA national functional guidelines on
10 percent of the data, and our review found that the data validation requirements were met.

QUALITY ASSURANCE OFFICER NOT APPOINTED

The Federal facility agreement, signed in September 1990, required the Air Force to appoint a quality assurance
officer. This officer has the responsibility to ensure that work is performed in accordance with the QAPP.
However, a quality assurance officer was not appointed until 1993.

To date, nearly one and a half years after the effective date of the [federal facility agreement], the Air Force
has not designated a QAO [for Travis Air Force Base].

-EPA Region 9 letter to Air Force, April 15, 1992

COSTS AND DELAYS IN CLEANUP

The Air Force informed us that it paid Weston about $2 million for its laboratory data analyses. However, the
quality and usability of this data is unknown. Further, because of the laboratory analyses problems, the due date
for the original remedial investigation report for one of the operable units slipped from May 1993 to February
1996, a delay of more than 2 years.

RECOMMENDATIONS AND REGION 9 RESPONSE

Our recommendations are addressed in Chapter 2 of this report. The Region's complete response to this chapter
and our evaluation of the response are included as Appendices A and B of this report.

                                                 Chapter 6
                                        Hunters Point Naval Shipyard

SUMMARY

Between October 8, 1990 and December 18, 1990, the Navy's engineering contractors collected over 1,200 soil
samples and dozens of groundwater samples to initiate remedial investigations at Hunters Point Naval Shipyard.
These samples were sent to two laboratories. Nearly 1 years later, in May 1992, all organic analyses from these
samples were rejected due to poor quality laboratory data.

Throughout the RI/FS process, the [Region 9 remedial project manager] will be primarily responsible for
overseeing that the Navy's decisions have been based on data of sufficient quality.

-Region 9's Data Quality Oversight Plan,

March 1991

According to the engineering contractor, the cost of the rejected data was $2.5 million. It cost the Navy another
$1 million to replace the rejected data and the cleanup was set back 2 years.

We found that the Region had prepared a data quality oversight plan to help it assess the quality of the data and
the performance of the laboratories. However, the plan was not implemented. If it had been, and had the QAPP
been better designed and implemented, we believe the 2-year delay could have been substantially reduced.

BACKGROUND

Hunters Point Naval Shipyard is located in San Francisco and covers 965 acres, of which about half is on land
and the remainder is on San Francisco Bay. It has continuously operated as a shipyard or ship repair facility
since 1869. Contaminants include paints, solvents, fuels and oils, acids and bases, metals, polychlorinated
biphenyl (PCB), and asbestos.

The base was listed on the NPL in 1989 and a Federal facility agreement to cleanup the site was signed in 1990.
Hunters Point is divided into five operable units covered by one Basewide QAPP. In addition to the QAPP, the
Region developed an oversight plan for monitoring data quality.

DATA PROBLEMS

From October 8, 1990 to December 18, 1990, the Naval Facilities Engineering Command had an engineering
contractor collect over 1,200 soil samples and dozens of groundwater samples to initiate remedial investigations
at Hunters Point. These samples were sent to two laboratories: Eagle Picher Environmental Services and
National Environmental Testing (NET) Pacific Laboratories.
Problems were first noted by the engineering contractor in November 1990, when preliminary data received
from both laboratories indicated that holding times were missed. By December 1990, the contractor concluded
that the laboratories' analyses reports were going to be significantly late, and stopped work on this phase of the
field work.

"Cursory" data reviews found more problems and the engineering contractor decided to discontinue sending
samples to the two laboratories. However, the engineering contractor thought that previously analyzed data
could be used for the remedial investigation.

When the contractor finished data validation using EPA national functional guidelines in March 1992, it found
serious data quality deficiencies, such as instrument calibration problems.

Laboratory problems identified included difficulties meeting holding times because of sample overloading,
difficulties in delivering results in electronic format, and problems submitting ...full validation packages.
Additional lab problems... included instrument calibration problems, and calculation errors.

-Hunters Point Technical Meeting,

June 2, 1992

Consequently, in May 1992, the contractor recommended and the Navy agreed, that all organic compound
analyses be rejected. At the May 1992 technical review committee meeting, the Naval Facilities Engineering
Command informed the Region and the State of California of the data quality problems and its decision to reject
the data.

REGIONAL OVERSIGHT PLAN NOT IMPLEMENTED

In March 1991, the Region developed a data quality oversight plan to help it assess the quality of the data and
laboratory performance. These plans are not required and were not developed for the other bases included in our
review. We believe that the plan could have been a good tool for overseeing data quality; however, it was never
implemented.

Data Validation Oversight Not Performed

One of the major oversight areas in the plan was data validation. According to the plan, the following steps
were to be accomplished:

The Navy would validate 100 percent of the data.

The Region's data validation contractor would review at least 10 percent of the Navy's validation.

If validation problems arose, the Region's contractor could review another 10 percent of the Navy's validation to
identify the causes of problems.

If the Region finds major problems with data validation, it should meet with the Navy and discuss the problems.

As discussed later in this chapter, the QAPP did not require the 100 percent data validation specified in the
oversight plan. It only required that 10 percent of the data be validated. Also, there was no evidence that the
Region's contractor reviewed 10 percent of the Navy's data validation. Had either of these levels of data
validation been performed, we believe the quality control problems that led to the rejected data could have been
detected about one year earlier than May 1992.
Laboratory Audits Not Performed

The second major oversight area in the plan pertained to laboratory audits. According to the plan, the Region's
project manager was responsible for implementing laboratory audits. The plan included a detailed audit
checklist and recommended an audit before the start of analytical work and during the course of the program.
However, the Region did not perform any laboratory audits.

An audit of the laboratories used for the Navy's Hunters Point Annex Remedial Investigation/Feasibility Study
activities will assist the U.S. EPA in verifying the quality of the data.

-Hunters Point's Data

Quality Oversight Plan

QUALITY ASSURANCE PROJECT PLANS DEFICIENT

We reviewed the Basewide QAPP and found it included some good features such as requiring data validation
using EPA national functional guidelines. However, it did not include any data quality objectives, an important
tool for deciding data quality.

Further, it did not establish time limits for submitting data packages, completing data validation, or submitting
data validation reports. In addition, it did not require laboratory audits, double-blind PE samples, or magnetic
tapes availability. We also noted the Basewide QAPP was not formally approved by the Region.

Data Quality Objectives Not Defined

The OIG ESS found the QAPP did not adequately identify data quality objectives. The Region's data quality
oversight plan also commented that the QAPP did not:

Clearly present data quality objectives;

Establish the analytical (data package) levels needed to meet the data quality objectives; or,

Establish acceptable error rates or confidence requirements for determining the sample size to reach the data
quality objectives.

The lack of data quality objectives may have caused many of the data problems because the objectives are used
to determine the type, quantity, and quality of data to be collected. No samples should be collected until data
quality objectives have been determined.

...the allowable error or confidence needs to be documented in the...QAPP. The acceptable error and/or
confidence is used to establish the number of samples required and the number of [quality control] samples
required.

-Data Quality Oversight Plan,

March 1991

Data Validation Requirements Deficient
The QAPP required data to be validated using EPA national functional guidelines. It was through the use of
data validation that the data quality problems at Hunters Point were found. However, the QAPP did not include
time limits for providing data packages or performing the data validation.

Data was not rejected until 1 years after sampling because data validation was not performed promptly. A large
number of samples were taken between October and December of 1990. In January 1991, the engineering
contractor started performing "cursory" validation of this data and found "serious, but not fatal," holding time
deficiencies. Holding times are time limits for analyzing samples. After limits are exceeded, results are
considered less accurate.

Cursory validation was not completed until August 1991 because laboratory data was missing. Based on this
validation, the engineering contractor decided the laboratory analytical results were, "at best," estimates. The
engineering contractor erroneously assumed that the "degree of confidence in data qualitywould not get worse
after completion of full validation." It did.

Data validation, in accordance with EPA national functional guidelines or the equivalent, did not start until
about 10 months after sampling was completed. After completing the data validation in March 1992, the
engineering contractor decided, in May 1992, to reject all organic analyses for three of the operable units.

                                               Problems Found by
                                                Data Validation

. Missed holding times

. Incomplete data validation packages

. Instrument calibration problems

. Calculation errors

At a June 1992 meeting, the State requested that, "...all future reports include only fully validated data..." While
this was an appropriate request, we believe that timely validation should also have been required. In this case,
well over one year passed before full data validation determined that all organic analyses had to be rejected.

Matrix Spike Results Excluded

Although the QAPPs generally required the use of EPA national functional guidelines, data validation reports
did not contain all required elements. Our review of two data validation reports found that matrix spike results
were not included in either report.

A matrix spike is prepared in the laboratory by adding a known amount of target analytes into the field samples
prior to laboratory analysis. They are generated to determine long-term accuracy of the analytical method and to
demonstrate acceptable compound recovery by the laboratory at the time of sample. We believe that matrix
spikes and all other items included in the national functional guidelines should be included in the data validation
reports to ensure the data is of known quality.

Data Validation Percentage Not Met

We also found that the percentage requirement for data validation was not fully met. The QAPP required data
validation according to national functional guidelines and that validation be performed on 10 percent of the
samples. We found just 8.3 percent of the 12,437 samples taken from 1991 to 1994 were validated.
Laboratory Audits Not Required

The QAPP did not require the Navy to perform laboratory audits. As a result, one of the two initial laboratories,
NET Pacific, was not audited. Further, one of the primary replacement laboratories that analyzed nearly 3,000
samples, Kennedy/Jenks/Chilton Laboratory, was not audited.

Nonetheless, Navy contractors did some audits of laboratories performing analyses for the Hunters Point site.
However, these audits did not ensure problems were found or resolved.

In April and May 1991, after the Navy realized there was a data problem, the engineering contractor audited
two of the three replacement laboratories: Enseco, Inc.-California Analytical Laboratories and Anametrix. We
concluded that these laboratory audits were of marginal value because:

They appeared to be cursory. The audits took only three hours to complete compared to the three days generally
needed for a thorough audit.

The engineering contractor performing the audit did not report any problems. This was the same contractor that
audited Eureka Laboratories on April 25, 1991 and did not find any major problems, although the laboratory
later confessed to falsifying test results.

Moreover, when deficiencies were identified in a more thorough audit, they apparently remained uncorrected.
The Navy contracted to have an audit of Eagle Picher Environmental Services laboratory conducted one month
before the Navy started sending samples to the laboratory. The audit found several deficiencies related to
calibration and acceptance criteria. Based on written comments received from the laboratory, the Navy's
contractor felt the deficiencies were satisfactorily addressed. Subsequent data problems at the laboratory tend to
contradict this conclusion.

                                          Eagle Picher Audit Findings

. Need acceptance criteria for calibration of balances.

. Need acceptance criteria for water system.

. Calibration standards for gas chromatography/mass spectrometry volatile analysis cannot be traced to
standards.

. No policy for documenting out of control events.

-September 1990 Navy Audit

The QAPP should be modified to require laboratory audits, and to ensure that they are thorough, completed
before the work starts on the project, and performed periodically throughout the project. The QAPP also should
require the results of the audits be provided to the Region. We believe that laboratory audits are a key piece of
the laboratory quality picture and must be considered in defensible decision-making.

No Double-Blind PE Samples

Double-blind PE samples were not required by the QAPP and were generally not used.

Magnetic Tapes Not Required
The Basewide QAPP did not require the laboratories to provide electronic data, such as magnetic tapes of raw
data, needed to perform audits.

QUALITY ASSURANCE OFFICER

Although the September 1990 Federal facility agreement required the appointment of a quality assurance
officer, the Navy did not appoint one until July 1994, over 3 years after the agreement was signed. Further, the
quality assurance officer, who oversaw 15 other Navy facilities, did not start work until September 1994.

COST AND DELAY CAUSED BY REJECTED DATA

According to the Navy's engineering contractor and a corresponding newspaper report, the Navy paid about
$2.5 million for the laboratory work that was rejected. Another $1 million was spent to replace the rejected data.
In addition, we believe the data problems caused at least 2 years of the 3-year delay in completing the basewide
remedial investigation.

RECOMMENDATIONS AND REGION 9 RESPONSE

Our recommendations are addressed in Chapter 2 of this report. The Region's complete response to this chapter
and our evaluation of the response are included as Appendices A and B of this report.

                                                 Chapter 7
                                             Luke Air Force Base

SUMMARY

Since the Federal facility agreement was signed in 1990, Luke Air Force Base (AFB) has used Analytical
Technologies Laboratory, Inc.'s (ATI) Phoenix laboratory to perform most of its laboratory analyses. In
September 1994, the Air Force submitted a Remedial Investigation (RI) Report to EPA that was based on
analyses performed by the ATI-Phoenix laboratory. Just before the submission of the RI Report, EPA
suspended the ATI-Phoenix laboratory from further Federal work for allegedly using faulty test equipment and
reporting false results under another EPA program.

The Region subsequently determined that the RI Report is not sufficiently supported. As a result, cleanup has
been delayed by nearly one year thus far, and may require a major resampling effort. In our opinion, the delay
could have been avoided if the QAPPs had been more effectively designed and implemented.

...We believe that the quality of the data from the remedial investigation at Luke Air Force Base cannot be
determined to the extent that a Superfund Basewide Record of Decision...can be signed and finalized.

-Region 9's letter to

Luke Air Force Base, June 2, 1995

BACKGROUND

Luke AFB is a 4,200-acre base near Phoenix, Arizona, with a primary mission of advanced fighter training. The
contaminants found at the site include petroleum products and volatile organic compounds, such as benzene.
The base was listed on the NPL in 1990, and has been divided into two operable units (1 and 2). Three QAPPs
were prepared; a Basewide QAPP and one for each operable unit. The base is using the services of the Omaha
District of the U.S. Army Corps of Engineers (the Corps) to issue and monitor its contracts for the
environmental investigation and cleanup.

The base's engineering contractor contracted with the ATI-Phoenix laboratory in 1991 to perform most of the
analyses for the RI Report. In early 1994, a former ATI-Phoenix employee alleged that fraud was occurring at
the laboratory. On September 1, 1994, EPA suspended ATI-Phoenix from performing any additional Federally
funded work. The suspension was due to the laboratory's alleged use of faulty testing equipment and reporting
false test results for analyses performed for the Glendale, Arizona Water System under the Safe Drinking Water
Act.

The quality of laboratory data is of the utmost concern to us.

-EPA's Press Release

on ATI's Suspension

September 1, 1994

Although Luke AFB was aware of the suspension, it submitted the RI Report for Operable Unit 1 to EPA on
September 2, 1994. However, neither the Air Force, the Corps, or the Region have been able to fully ascertain
the usability of ATI-Phoenix's analyses. In August 1995, the Region determined that some of ATI-Phoenix's
data was manipulated and therefore is of unknown quality. The Region, the Air Force and the state have agreed
on the outline of a risk-based management approach that will determine the quality of the data. Because data is
of unknown quality, the Region has been unable to approve the RI Report, delaying the cleanup by nearly one
year thus far.

QUALITY ASSURANCE PROJECT PLANS WERE DEFICIENT

We reviewed the Basewide and Operable Unit 1 QAPPs at Luke AFB. Although these QAPPs included some
good quality assurance features, such as split sampling and laboratory audits, they did not require:

Double-blind PE samples;

Data validation, according to EPA national functional guidelines (unless problems were found);

Magnetic tapes to be provided upon request; and

Disclosure of the primary laboratory used at the site.

In our opinion, all of the above are essential features for an effective laboratory quality assurance program and
should have been included in the QAPPs. We also noted that none of the QAPPs were approved by the Region.

Performance Evaluation Samples Not Fully Effective

The QAPPs provided that PE samples may be used if data problems were found. We noted the Corps used
single-blind PE samples as part of its process to validate laboratories. The Corps sent single-blind PE samples to
ATI-Phoenix in August 1991 and again in March 1993. However, we do not believe that single-blind PE
samples are fully effective because the laboratory is aware it is evaluating a specific PE sample.
The use of double-blind PE samples would be a more effective way of detecting problems, since the laboratory
would not be aware that it was being evaluated. A good example of the effectiveness of this evaluation
approach occurred at March AFB, as discussed in Chapter 4 of this report.

Data Validation Not Required

The QAPPs did not routinely require data validation according to EPA's national functional guidelines. The
Region, in a review of quality assurance procedures in 1991, advised the Corps that:

...The minimum percentage of data package selection for validation...has not been proposed by the Corps. EPA
recommends that the Corps outline a routine approach for identifying a minimum percentage of data validation
plus a strategy for selecting data.

Although this was good advice, the Corps did not incorporate a validation percentage into the QAPPs. Instead,
the QAPPs stated that data validation was required only when "substantial quality control problems" were
detected. According to the Region's Quality Assurance Management Section, data validation should be done for
a minimum of 10 percent of the samples, whether quality control problems are found or not.

Further, the QAPPs did not require the laboratory to provide data packages needed for data validation, unless
problems were found. As a result, Luke AFB has experienced difficulty in obtaining the necessary data
packages. Without these packages, the quality and useability of ATI Phoenix's data could not be determined,
thereby delaying decisions on how the cleanup should proceed.

Even after learning of the potential laboratory analyses problems with ATI-Phoenix, the Corps performed data
validation on only 3 of 2,073 samples analyzed by the laboratory. The validation, performed in mid 1994, did
not disclose any problems. However, we consider the sample size too small to effectively evaluate data quality.

I do not believe ATI is responding in a timely manner with our/EPA's request for raw data.

-Luke Air Force Base

Restoration Section Chief

February 25, 1995

In September 1994, after suspending ATI-Phoenix, the Region requested ATI-Phoenix's data packages from
Luke AFB. ATI-Phoenix did not furnish these packages promptly even though they were required to be
provided within 30 days. In a February 22, 1995 letter, Luke AFB's cleanup manager told the Corps that:

I will not tolerate any further delays in ATI's responsiveness to this request. Our data is only usable if EPA
determines it so via an audit of the ENTIRE list of accession numbers which I compiled. Failure to provide this
entire list in a timely matter will result in a default determination that our data is not usable. I have determined
that the definition of "a timely manner" runs out 10 March 95.

Although data packages were delivered by March 10, 1995, some of the packages were incomplete and could
not be used to perform data validation in accordance with EPA guidelines. Consequently, the cleanup has been
delayed because the majority of the work cannot proceed until the useability of the data has been determined.

Magnetic Tapes Not Available
The QAPPs did not require the laboratory to provide electronic data, such as magnetic tapes of the raw data,
needed to perform magnetic tape audits.

ATI-PHOENIX LABORATORY NOT IDENTIFIED IN QAPP

The QAPP for Operable Unit 1 included the organizational structure and selected resumes for the ATI
laboratories in San Diego and Pensacola. However, it did not identify or discuss the ATI-Phoenix laboratory.
According to Luke AFB personnel, the QAPP was written by the engineering contractor's Tampa, Florida
office, and it may have been unaware that ATI had a Phoenix laboratory. In order for the Region to effectively
evaluate a QAPP, it must have complete information about the laboratory and its capabilities.

LACK OF QUALITY ASSURANCE OFFICER

Luke AFB, the Region, and the State of Arizona signed the Federal facility agreement in September 1990. We
believe that one of the weaknesses in the agreement was that it did not require the appointment of a quality
assurance officer. Such an appointment could be effective in helping to affix responsibility for oversight of
laboratory quality.

DELAY IN CLEANUP

The potential data quality problems have already delayed the cleanup by nearly one year. To illustrate, the
Region's review of the RI Report for Operable Unit 1, originally scheduled for completion by November 1994,
has slipped to October 1995.

Further, it appears resampling will be required. According to a June 2, 1995 letter from the Region to Luke Air
Force Base:

...we believe at this time that results for volatile organic compounds..., semi-volatile organic compounds..., and
pesticides are, at best qualified...Qualified data alone is not sufficient to support a baseline risk
assessment...Based on available information, we strongly anticipate that confirmatory sampling will be needed
to support the Basewide ROD [Record of Decision].

RECOMMENDATIONS AND REGION 9 RESPONSE

Our recommendations are addressed in Chapter 2 of this report. The Region's complete response to this chapter
and our evaluation of the response are included as Appendices A and B of this report.

                                                APPENDIX A
                                      Region 9 Response to Draft Report

Region 9's complete response to the draft report is attached. The Region's specific comments were referenced to
the page numbers of our draft report. These page numbers have changed in the final report. Our evaluation of
the Region's comments is included in Appendix B.

NOTE: Please see the hardcopy for page references.

                            UNITED STATES ENVIRONMENTAL PROTECTION
AGENCY
                                                   REGION 9
                                              75 Hawthorne Street
                                            San Francisco, CA 94105
                                                  SEP 20, 1995

MEMORANDUM

SUBJECT: Response to Draft Audit Report No. E1SKF5-09-0031 Environmental Data Quality at DOD
Superfund Sites in Region 9

FROM: Nora L. McGee, Assistant Regional Administrator

for Policy and Management (P-1)

TO: Truman R. Beeler

Divisional Inspector General for Audits

Western Division (I-1)

The attached memo, dated September 3, 1995, titled "Audit of EPA Region 9's Oversight Of Data Quality
Assurance at Federal facilities, Draft Audit Report No. E1SKF5-09-0031," and signed by Julie Anderson-
Rubin, Chief, Federal Facilities Cleanup Office, constitutes our official management decision on the subject
audit. We feel confident that this memo is responsive to your concerns but understand from the exit conference
that we still need to better correlate our planned corrective actions to the draft audit report's recommendations.
We will provide an improved corrective action plan in our response to the final audit report.

In the interim, should you or your staff have any comments or questions, please contact Rich Hennecke,
Regional Audit Followup/Management Controls Coordinator at (415) 744-1630.

Attachment

cc: Geary Pena, Audit Manager (I-2)

Keith Takata (H-1-S)

Julie Anderson-Rubin (H-9)

Terry Stumph (P-3)

Vance Fong (P-3-2)

Rich Hennecke (P-2-1)

                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                            REGION IX
                                        75 Hawthorne Street
                                      San Francisco, CA 94105

September 3, 1995

MEMORANDUM

SUBJECT: Audit of EPA Region 9's Oversight of Data Quality
Assurance at Federal Facilities; Draft Audit Report

No. E1SKF5-09-0031

FROM: Julie Anderson, Director

Federal Facilities Cleanup Office

TO: Geary H. Pena

Acting Divisional Inspector General for Audit

Thank you for the opportunity to provide comments on the Draft Audit Report No. E1SKF5-09-0031,
Environmental Data Quality at DOD Superfund Sites in Region 9. Included in this response are general
clarifications and comments about the report, followed by comments on specific findings and recommendations
in the report and updates on EPA Region 9's follow up to earlier findings.

Draft Report Overview

As we stated in our previous written comments, we in EPA Region 9 have always recognized the essential role
that data quality assurance plays in our environmental programs. We work hard to instill in the federal facilities
we oversee an awareness of their lead agency responsibilities.

EPA's oversight responsibilities at Federal facilities are substantial and diverse. They encompass scoping and
approval of all investigations and other studies (workplans, risk assessments, ecological assessments, removal
plans, feasibility studies, treatability studies), community involvement (including attendance at frequent
Restoration Advisory Board meetings,), environmental justice awareness, resolution of the numerous issues that
often arise in remedy selection (cleanup levels, unexploded ordnance, endangered species protection, natural
resource protection, historical preservation), general compliance with CERCLA and the National Contingency
Plan, and data quality assurance. These oversight responsibilities are compounded by the vast acreage and,
frequently, hundreds of contaminated areas involved at each facility. At closing bases, additional efforts must be
directed to land use considerations, to quickly identify properties most suitable for early reuse, and make those
properties available to the community as expeditiously as possible. Given this considerable workload at Federal
facilities, EPA does not (and likely never will) have sufficient resources to oversee all aspects of Superfund
cleanup at each facility we ideally would, let alone to actually perform DOD's lead agency responsibilities.
Instead, EPA must leverage our very limited oversight resources to provide maximum benefit with minimum
investment. One way we have historically done this is to identify to DOD issues we have observed that may
effect remedy selection -- particularly if these issues have the potential to cross multiple facilities. We then
work with these lead agencies to help them address these problems systematically.

To date, our general approach in overseeing DOD's quality assurance responsibilities has been to work with
DOD to establish basic quality assurance plans for each activity, and require DOD to ensure these plans are
implemented through establishment of quality assurance officers dedicated to this function. We still believe this
fundamental approach, well executed, is sound. However, improvements to the actual quality assurance plans
and to DOD's execution are obviously necessary. Recent data quality problems at DOD sites (in some cases
discovered by EPA Region 9) confirm that these have been breakdowns in this approach, leading to data losses
or data of limited usability. In some cases, DOD did not assign quality assurance officers, and as a result did not
implement all aspects of the approved quality assurance plans. While EPA needs to check in more routinely on
DOD's implementation of the program, simply increasing our "policing" of DOD won't prevent or solve the
fundamental problem. Instead, DOD must assign a high priority to developing and implementing a sound
Department-wide approach to assuring data quality from its contract laboratories, as EPA has done with our
Contract Lab Program. Since EPA Region 9 became aware of this DOD problem, we have worked closely with
all Services to assist DOD in building an improved program that will fulfill their lead agency responsibility to
provide data of acceptable quality.

The report does not provide the reader a clear differentiation of the EPA's role and DoD's role at DoD
Superfund sites. The report does not reference or explain the effect Executive Order 12580, which delegated
lead-agency authority and responsibility to DOD at DOD CERCLA sites. In the absence of explanation, many
readers will assume incorrectly that EPA's role at federal facilities Superfund sites is analogous to its role at
enforcement-lead Superfund sites, where potentially responsible parties are performing Superfund work. At
enforcement-lead Superfund sites, EPA is the lead agency with primary responsibility for assuring proper
implementation of NCP requirements, even though the work is being performed by a PRP. At DOD sites, DOD
retains this primary responsibility. This intrinsically places EPA in a different, secondary position with regard to
our role and responsibility at Federal sites.

While EPA retains certain authorities at federal facility sites (listing and delisting sites on the NPL, selecting
remedies jointly with DOD and DOE, entering into interagency agreements), the resources we are provided to
carry out our responsibilities are commensurate with very broad-brush oversight rather than a lead role. The
lead agency functions of carrying out all aspects of the National Contingency Plan, preparing documents,
performing fieldwork and construction, and ensuring data quality remain with DOD. In several locations in the
draft report, problems and recommendations are described in terms that imply that EPA is the lead agency (e.g.
"The Region did not...revise the QAPPs"). We recognize that the focus of this audit was to evaluate EPA
Region 9, but where a perceived deficiency is attributable to DoD it should be so stated. Also, we suggest that
the report recommend actions DoD should take to improve its QA programs, which EPA could recommend to
DOD in our capacity as overseer. For instance, EPA should recommend to DOD that their contract documents
be improved to establish QA requirements that assure adequate prime contractor review of subcontracted
laboratories despite the inherent disincentives.

While the report addresses in great detail the perceived vulnerabilities in Region 9's oversight of DOD's quality
assurance program, it fails to acknowledge our many competing responsibilities or the substantial effort and
resource investment Region 9 has made over the last 2 1/2 years to detect and prosecute lab fraud at DOD labs,
raise awareness of DOD's QA problem, and assume a national leadership role in working with DOD to attempt
to improve this situation. We have found ourselves greatly frustrated in our many attempts to influence this
larger issue, and were hopeful the Inspector General's review would assist in assigning a higher DOD priority to
improving the situation. We are disappointed that the review doesn't appear to acknowledge the basis of the
problem; as written it instead seems to portray DOD's failure to provide data of adequate quality as a problem
caused by EPA's limited policing powers.

Executive Summary

1. Page i, paragraph 1

We recommend the following language changes:

At one DOD base, the Region uncovered extensive laboratory fraud was found.

Also, it's the source of the $5.5 Million/2.5 year loss should be referenced and supported.

2. Page ii, paragraph 3:

It is not EPA's role to directly oversee DOD laboratories as is implied in this paragraph; it is EPA's role to
oversee DOD's quality assurance program, which may include occasional direct EPA involvement in reviewing
laboratories under contract to DOD, or data produced by those labs. However, DOD has generally refused to
sign FFAs that provide EPA independent authority to conduct audits and inspections of DOD contract
laboratories.

We recommend the following language changes:

Although serious laboratory problems were identified, the Region had not significantly strengthened its
oversight program over DOD laboratories. Nor had it only required that DOD modify the quality assurance
project plans at one of the five sites audited ...

Further, it should be stated that the Region has increased its federal facility QA/QC oversight efforts in other
ways. The Region has instituted a PE sampling program for DOD sites, increased the number of field and lab
audits conducted (with DOD concurrence), has used several occasions to highlight the importance of QA/QC to
DOD's contractor community, has raised the DOD QA/QC problem at the highest organizational levels of DOD
and to all Service Branches, has worked collaboratively with DOD to develop and begin utilizing electronic
data validation methods, and has participated in DOD's triservice data quality workgroup, recommending
improvements to DOD's departmental data quality program. Further, the Region's debarment of fraudulent labs
and subsequent criminal prosecution of laboratory personnel have sent effective messages to DOD and the
laboratory community.

3. Page iii, paragraph 2

DQOs were a required element in all QAPPs. Often the DQOs stated in QAPPs were only statements of method
requirements or laboratory capabilities, but this element had to be addressed in some fashion in all QAPPS
undergoing QAMS review. Prior to 1994, there was no Agency guidance for defining quantitative project data
quality goals (and there is still no practical method of deriving laboratory quality goals from statistical
confidence levels for overall (field + lab) data quality). The 1987 Superfund DQO guidance stopped at defining
data quality parameters (PARCC) and 5 categories of analytical data, which were erroneously termed as levels
of data quality. We acknowledge that site-specific numerical data quality objectives (DQOs) have not been
prepared. However, the 1987 data quality objective guidance document was considered by Region 9 staff as
being not helpful in this regard.

4. Page iii, paragraph 3

We recommend the following language changes:

While the Region took action to reject data, address impacts of lost data, and increase certain QA oversight
activities such as expanding its PE sample and lab audit programs, The Region did not effectively monitor
compliance with QAPPs, or recommend that DOD revise the QAPPs after laboratory data problems were found.

5. Page iv, paragraph 4

The intent of this paragraph is unclear. Eureka laboratory was audited several times before being used by March
AFB, and while one of the audits identified serious problems with the lab, none of the audits detected fraud.
Further, this paragraph doesn't acknowledge that data quality problems as a result of lab fraud were finally
detected and prosecuted by EPA Region 9. While it is easily said in hindsight that stronger provisions in the
QAPP to detect fraud could have prevented this problem before the fact, the Region feels that our identification
of the problem and insistence on taking corrective actions should receive equal billing with the finding that the
QAPP was not sufficient.

Chapter One
1. Page 2, paragraph 1: The report should note that the Region is also responsible for oversight of twelve
closing bases which are not on the NPL, and may soon be expected to provide oversight to 8-10 more closing
bases added as a result of the fourth round of base closures.

2. Page 3, paragraph 2: The report would benefit by specifying what the IG learned about DOD's own data
quality assurance program -- i.e., you found they don't have a CLP and use multiple contractors. What did you
learn about DOD's program to fulfill its responsibility to provide data of acceptable quality from these many
contract and subcontract labs?

3. Page 5, paragraph 1: The report should indicate that the first four facilities were identified by EPA Region 9
as sites which had experienced known data quality problems. The report should also mention that, in the initial
IG review, when asked which issues were of greatest concern to Region 9 with regard to pace and quality of
DOD's cleanup program, Region 9 expressed our continuing frustration with repeated data quality problems,
some of which we had uncovered.

Chapter Two

1. Page 9 & 10, Reliability of DOD's Laboratory QA Program Unknown

The statement in Chapter 2 of the audit report that the Region is "unfamiliar with DOD's laboratory quality
assurance program," is incorrect. It is recognized that some confusion exists concerning the individual
laboratory QA programs for the Navy, Army, and Air Force. The text in Chapter 1 (Introduction, Background,
Environmental Data Quality Requirements, Page 3) acknowledges that "unlike EPA, DOD does not have a
centrally-managed contract laboratory program for monitoring laboratory quality." As a result, all three services
operate somewhat differently.

However, it is unfair to conclude that the Region lacks expertise in understanding DOD's laboratory quality
assurance program. The Region's Remedial Project Managers (RPMs) and Quality Assurance Management
Section (QAMS) staff routinely handle issues related to DOD's program. Any criticisms of the Region's
expertise in this matter should be accompanied by acknowledgement of problems with DOD's internal
consistency. In addition, DOD staff are themselves often unfamiliar with their own QA organizations and
methods for quality assurance.

2. Page 9, paragraph 3: The report should indicate that, wherever the Rivers response indicated Eureka lab had
been used at an NPL site in Region 9, EPA staff were informed and directed to discuss the extent of Eureka's
use at the site and to assess the criticality of this particular data to remedy selection at the site. While it may be
true that EPA didn't request in writing more data, this misrepresents our awareness and interest in the data
generated by this lab, and implications on decision making.

3. Page 10, Laboratory Quality Assurance Oversight Activities at DOD Sites Need Improvement

The text in one section of Chapter 2 (Reliability of DOD's Laboratory QA Program Unknown) criticizes the
Region for providing laboratories with more than one opportunity to "pass" a performance evaluation (PE)
sample. However, the text in another section of Chapter 2 ("Double-Blind" PE Samples not Required, page 21)
implies that submission of a second PE sample, after a laboratory has failed to meet the accuracy criteria for a
first PE sample, is considered to be acceptable. The audit report provides an example of language which was
added to a QAPP for Travis Air Force Base (AFB) that requires the analysis of double-blind PE samples. The
text in this example states that "If the accuracy criteria are not met, the cause of the discrepancy will be
investigated and a second PE sample will be submitted." This apparent discrepancy should be addressed.

4. Page 11, paragraph 2: We agree "some tracking system" should be in place, but it should be the primary
responsibility of DOD as lead agency to track its own laboratory use and the quality assurance measures
employed by those labs to validate data. For EPA to create and maintain a similar data base is duplicative and
wasteful of limited national resources.

5. Pages 11 and 15

A figure compares the 100% data validation and PE sample use at EPA-lead sites to the % at federal sites,
implying that the lower % at federal sites is inadequate. 100% data validation is not a requirement, and a
question remains as to whether it is in fact desirable. The data user, when considering the site or project-specific
need may decide, through using the data quality objective process, an adequate percentage of data to be
validated. A uniform 20% data validation may be adequate for one site and not adequate for another.

6. Page 16, Laboratory Quality Assurance Oversight Activities at DOD Sites Need Improvement, Data
Validation was Deficient, Page 16

The discussion of data for Hunter's Point Superfund Site states that data rejected in validation, generally, are
unusable. It should be noted rejected data are always considered to be unusable.

7. Pages 18 & 19, Laboratory Quality Assurance Oversight Activities at DOD Sites Need Improvement,
Computer Aided Validation Should be Implemented

The text in Chapter 2 of the audit report recommends that QAPPs for DOD sites be modified to require the use
of the EPA-developed computerized data validation program, Computer-Aided Data Review and Evaluation
(CADRE). The use of computerized data validation is recognized to provide a more efficient, consistent, and
cost effective method of data review than traditional manual validation, and its use should be encouraged
whenever feasible.

However, the audit report fails to address critical implementation problems associated with the use of CADRE
for validation of data generated for DOD sites. CADRE was expressly developed for application to data
generated in Agency Standard Format, which is the electronic data reporting format used by the EPA Contract
Laboratory Program (CLP). In order for CADRE to be useful to DOD, DOD contract laboratories would need
to generate data deliverables in Agency Standard Format. It is unclear whether EPA has the authority to
prescribe specific data reporting requirements for such laboratories. On April 10, 1995, QAMS offered the first
CADRE training for Federal facility representatives. QAMS subsequently request approval from OERR to
release CADRE to Federal facilities and their contractors. QAMS also marketed CADRE at the California Base
Closure Committee meeting as a recommendation to better assess data quality and saving resources.

At this time, it is considered to be more realistic to recommend, rather than require, that QAPPs for DOD sites
incorporate the use of CADRE. Alternatively, the specific model of electronic data validation software that will
be used should be left to the discretion of DOD.

6. Page 19

The report indicated that the Region conducted CADRE training for DOD staff on April 1995. However, no one
from the Air Force attended. QAMS has since scheduled a CADRE training for the Air Force for Fall, 1995.

7. Page 21, Laboratory Quality Assurance Oversight Activities at DOD Sites Need Improvement, Magnetic
Tapes Should be Available

The discussion of magnetic tapes in Chapter 2 of the audit report should be expanded to describe the limited
application of tape audits. It is agreed that magnetic tapes provide a valuable tool for disclosing analytical
deficiencies. However, it should be clarified that, in general, primarily data generated by analytical methods
which involve the use of gas chromatography and gas chromatography/mass spectrometry [GC/MS] (i.e.,
volatile and semivolatile organic compound and dioxin/furan data, most commonly) are suitable for tape
auditing purposes. The information presented in the audit report is misleading in that it implies that magnetic
tape audits have application to all types of analytical data.

8. Pages 25-27: Recommendations See our conclusions at end of this document.

Chapter 3, Sacramento Army Depot:

1. Data Validation

Sacramento Army Depot has agreed to resample the Tank 2 Operable Unit and perform the necessary data
validation on the new samples. We propose advising the Army that if resampling indicates that cleanup levels
have not been achieved, EPA will withdraw its cleanup certification and additional remediation will be
required.

2. Recommendation

Concur with the recommendation; however, we would prefer that the recommendation be flexible enough to
allow for a cost-effective approach to the validation of all previous data. We suggest the recommendation read:
"Require the Army to develop and implement an EPA approved plan to validate previous data used for decision
making using EPA national functional guidelines or equivalents."

Chapter 4, March AFB:

1. Page ii states, "...the Region had not significantly strengthened its oversight program..."

This statement is untrue. Four other laboratories in use at March AFB were sent PE samples following the
identification of the Eureka problem. Due to either problems in preparation of the PE samples or analysis of the
samples by our laboratory, the results were not conclusive and additional PE samples could not be prepared by
EPA QAMS in a timely manner.

2. Page iii states, "...the lack of site-specific data quality objectives was one reason serious problems were found
with environmental data quality."

This finding is a non-sequitur for March AFB. There is no relationship with data quality objectives and fraud.
This also would be the case on at least one other base reviewed by the IG (Luke).

3. Page iv, second paragraph under March AFB, which begins, "We found..."

The intent of this paragraph is unclear. None of the QAPPs for any of the FF in the past have measures to
protect against fraud. So this finding is not unique to March. There were two "laboratory audits" of Eureka by
the Air Force technical support. While those audits certainly identified problems with use of the lab, those
audits did not detect fraud, nor would were they designed to detect fraud.

4. Page vi, second to the last bullet.

I do not know of any evidence to support the concept that the quality of QAPPs could be assured by the use of
only government employees as quality assurance officers. Such a statement diminishes the quality of the
argument you wish to promote. EPA has had excellent technical support from a number of contractors, and
there is no reason why this will not continue to be the case. Also, "...independent laboratory audits..." needs
definition.
5. Page 39, first paragraph

Add the word, "criminal" to the sentence ending, "...laboratory pleaded guilty to criminal charges that its test
results were falsified."

6. Page 39, second paragraph

This paragraph is unclear. If the intent is to say that the QAPP did not contain a requirement to do a laboratory
audit nor did it require magnetic tape audits, this is true. However, it is also not unusual. None of the FF QAPPs
have required either of these functions. In fact, magnetic tape audits by EPA of PRP work are not SOP in any of
EPA guidance. They are done only if fraud is suspected, and the submittal of magnetic tape is probably
enforceable only through Consent Decrees or Section 104 action. It is doubtful we could require it at FF unless
it is in our guidance (The FF agrees to follow EPA guidance in the model FFA). Perhaps the IG wished to
recommend that the guidance is strengthened, but this is not the impression I have when reading the draft.

7. Page 42, first full paragraph

The basewide QAPP was approved as part of the approval of the basewide Workplan and Sampling and
Analysis Plan. Approval of the Workplan and the Sampling and Analysis Plan were given in our letter of
December 21, 1991, in which we gave additional comments on the draft final. The Air Force agreed to our
comments in their letter dated December 30, 1991. Copies of both those letters were sent to Dan Cox of the IG's
office by mail on August 22, 1995.

8. Page 42, first paragraph under Laboratory Audits Not Required

EPA Region IX QAMS has not seen much value in "laboratory audits" in the past. Furnishing PE samples
probably has more value on a dollar-for-dollar basis. Also, the Eureka Lab problem was fraud. Fraud, as we
carefully explained to the IG staff can not be detected by a "laboratory audit". The type of fraud performed by
Eureka would not have been detected by a "laboratory audit".

9. Page 43, first full paragraph

It would appear that the real candidate for an audit would be the Air Force. Why was a sub-contract given to
Eureka when the Air Force contract technical auditor recommended, after two lab audits, that samples not be
sent to that lab? It would appear that the largest contribution the EPA IG could make to this story is to push the
Air Force to conduct an internal audit to discover the full extent of their internal QA problem.

10. Page 43, No Data Validation

This paragraph is a non-sequitur. Laboratory fraud will not be detected by Level IV data packages.

11. Page 44, Costs

Eureka Labs was paid about $845,000 for analyses of March AFB samples. An additional $144,000 was
expended for all costs associated with resampling and analysis of samples. All of the $144,000 for resampling
and analysis was paid by the engineering contractor.

Chapter 5, Travis Air Force Base

No additional comments.
Chapter 6, Hunters Point Annex:

1. Rejected Data Cost Estimates

The Navy engineering contractor, PRC, informed EPA Region 9 that it estimates that the rejected data cost
approximately $1.21M, and the cost to replace this data was $945,906, not $2.5M and $1.1M as stated in the
report. Please see the attached documentation provided by PRC, the Navy's engineering contractor.

2. Federal Facility Agreement. On page 56, Position Paper for Hunters Point, the following quotation is
inaccurate: "Although the base was listed on the NPL in 1989, a federal facility agreement to cleanup the site
was not signed until] 1992."

The original FFA for Hunters Point was signed September 1990. In January 1992, the FFA was revised with
new schedules and the addition of the Regional Water Quality Control Board as a signatory. A copy of this
earlier FFA is enclosed for your records.

3. Data Validation. On page 58 of the Report the following statement is made: "Also, there was no evidence that
the Region's contractor reviewed 10 percent of the Navy's validation. If this had been done, we believe the
quality control problems that led to the rejected data could have been detected by May 1991, about one year
earlier."

We believe it is important to note that according to the Navy's engineering contractor, the sample holding time
exceedence problems were detected early enough in the process, during the contractor's cursory review of the
Phase 1A data, to result in termination of use the offending labs and initiation of use of new labs in the Summer
of 1991 for the Phase 2A data analysis.

4. Page 58, Laboratory Audits Not Performed.

The Navy is the lead agency for the project. As the IG report acknowledges, the Navy did perform some lab
audits. These audits were already part of the Navy's and their contractor's procedures and therefore, the Region
did not use its oversight resources to perform its own lab audits which would have been duplicative of the
Navy's efforts.

5. Page 61, Laboratory Audits Not Required.

The Region 9 staff are uncomfortable with the language used in the first sentences of this page: "The QAPP did
not require the Navy to perform laboratory audits. Nonetheless, Navy contractors did some audits of
laboratories doing analyses for the Hunters Point site." This statement could be rephrased: "Although the QAPP
did not include a requirement that the Navy conduct lab audits, the Navy, in accordance with their own internal
procedures, did perform audits of laboratories doing analyses for the Hunters Point site. It is for this reason, that
EPA Region 9 did not use its oversight resources to perform its own lab audits which would have been
duplicative of the Navy's efforts."

6. Page 61, Laboratory Audits Not Required. The last sentence of the first bulleted item reads, "This conclusion
appears to be contradicted by the subsequent data problems at the laboratory."

This statement supports our belief that laboratory audits cannot be relied upon to detect all quality assurance
problems that may arise and calls into question the Report's recommendations for increased emphasis on
laboratory audits.

7. Estimated Schedule Delay
EPA does not agree with the estimated 2 year delay in the overall project schedule. It would be more
appropriate to state that full characterization of the sites in question was delayed. Again, there have been many
factors which have contributed to delays in the overall cleanup schedule at Hunters Point, most particularly,
availability of sufficient capacity and funds for Navy contracts.

8. Split Sampling

During the most recent sampling of groundwater from a parking lot spring on Parcel A, a Field Sampling Plan
was prepared by EPA Region for the Navy with complete review and approval of the Region 9 Quality
Assurance Management Section. This sampling occurred in late 1994 and early 1995. In addition, EPA
collected and analyzed split groundwater samples to confirm the validity of the Navy's sampling effort.

9. Revised Basewide QAPP

Remedial investigation fieldwork is near completion. The Navy, with the assistance of its engineering
contractor, is in the process of revising its QAPP for use in the long term groundwater monitoring program at
Hunters Point.

Chapter 7, Luke AFB:

1. Page vi, 1st paragraph: "To date, neither the Region or the Air Force have been able to determine if
environmental data is of sufficient quality to support remedial action."

The statement should be updated by the fact that to date, the State, EPA, and Air Force have agreed (7/11/95)
on the outline of a risk-based management approach that will determine the quality of data. The plan, that will
implement the approach, is going through regulatory review and should be finalized by October 1995.

2. Chapter 7, Page 63, Summary: "The Region has not yet

determined whether the RI report is sufficiently supported, or if the report should be rejected."

The statement should be updated. To date, evidence has been (EPA Region 9, 8/4/95) acquired indicating that
some of the Luke AFB RI data have been manipulated by ATI-Phoenix to the extent that the quality of the data
is unknown, and therefore cannot be used for remedial decisions. Taking the data manipulation into account
with the EPA lab suspension and State of Arizona suspension of contracts, the Region has determined that the
RI report is not sufficiently supported. Negotiations are currently underway to put together the Plan (with
enforceable dates) to address the data quality issues and for the Air Force resubmit the RI report.

3. Chapter 7, Page 64, Summary, Last paragraph: "..Neither the Air Force,...or the Region have been able to
substantiate the quality of ATI-Phoenix's analyses...Consequently, the Region has been unable to approve the
RI report, delaying the cleanup by nearly one year thus far."

The statement is not accurate and may give the impression that the Region has been primarily responsible for
delaying the cleanup for one year. The statements also implies that if the Region had approved the RI report, the
cleanup would not have been delayed. Lastly, the statements make it appear that the Region has done nothing
to determine the quality of the RI data. The statement should be rewritten as follows:

However, the Air Force, the Army Corps of Engineers, and the Region have yet to fully ascertain the usability
of ATI's analyses. Consequently, the Region has not approved the RI report more than one year after its
submittal, which will ultimate delay the cleanup. While laboratory fraud was a primary cause of delays at this
site, lack of cooperation on the part of ATI and the Air Force with EPA and State efforts to determine whether
Luke data was impacted by fraud have further exacerbated the delays.

The Region should be given appropriate credit for its efforts to identify problems with the quality of data as
appropriate.

The statements should be revised to be more accurate. First, it should be made clear that the Region is not
primarily responsible for the delay in the cleanup. Primary responsibility for the delay should be given to the
Air Force as the lead agency, which sub-contracted the analyses work with ATI-Phoenix through the Army
Corps of Engineers. Second, EPA Region 9 approval of the RI report (for the purpose of not delaying the
cleanup), would have been an irresponsible action that would have compromised EPA's mission to protect
public health. The latest evidence (indicating direct manipulation of data by ATI-Phoenix) shows that the
Region made the right decision to withhold approval of the RI report.

The Region did provide preliminary comments the RI report (EPA Region 9, 11/7/94). The Region's comments
focused only on the metals analyses, since no evidence of fraud in that area of analyses was found.

Between the State of Arizona (AZ) and Air Force, the Region has taken the lead in identifying and determining
that the RI data for Luke AFB was affected by ATI-Phoenix fraud (EPA Region 9, 6/2/95 and 8/4/95). In
addition, the Region has taken the lead in starting the process of auditing the tapes to determine the extent of
manipulation (Region 9, 6/8/95 & 6/23/95). As indicated in the draft report, data for the audit was not provided
by the Air Force in a timely manner. Most importantly, the Region was the lead in proposing a risk-based
management approach to address the data-quality issue to the Air Force and State of AZ (Project Manager
meeting 7/11/95). The Plan outline of the approach was submitted on 8/10/95 and is under review at this time.

Lastly, the Region has conducted a preliminary review of the Army Corps of Engineer (ACE) QA/QC program
(8/9/95). Our review focused on the ACE QA/QC program's ability to detect fraud with its split sampling
program. Our initial review concludes that the ACE split samples cannot be used to discriminate between
manipulated and untainted accession numbers (see comment #8).

4. Page 64, Last paragraph: "We also noted that none of the QAPPs were approved by the Region."

The statement is inaccurate. The statement should be revised to indicate that the Base-wide QAPP is a primary
document under the Luke Air Force Base Federal Facilities Agreement (FFA) and was reviewed by the Region
in accordance with the FFA.

5. Page 66, 4th paragraph: "Consequently, the cleanup has been delayed because work cannot proceed until
useability of the data is determined.

This statement is inaccurate because cleanup work is progressing at some sites at Luke AFB. For example, a
bioventing treatability study is being conducted at site SS-42, and the remedy for the OU-2 ROD (ex-situ
biological treatment) is in the remedial action phase at site DP-23.

6. Page 66, last paragraph: The QAPPs did not require the laboratory to provide electronic data...to perform
laboratory audits.

The statement should be clarified. The QAPP indicates that tapes will be provided upon request from the Air
Force at any time. In, fact the Region has acquired tapes through the Air Force for the purpose of conducting a
tape Audit.

7. Page 64, QAPP features that were lacking.
It should be noted that the type of fraud committed by ATI Phoenix would not have been detected by the
features identified as lacking from the QAPP. Based on meetings with QAMs Region 9 (Steve Remaley), the
best features that should be added to the QAPP, and conducted by the Air Force should be to: 1) conduct
random tape audits (with no prior warning to the lab); and 2) The use of more than one lab for Remedial
Investigation sample analyses (to minimize impact to decision making).

8. Page 67, QAPP Has Good Practices

The section should be updated to the fact that EPA Region 9 has conducted a preliminary review of the Army
Corps of Engineer's (ACE) QA/QC Program in support of the Installation Restoration Program (IRP) at Luke
Air Force Base. The review (EPA Region 9 8/9/95), focused on the split samples and on the program's ability to
identify manipulated IRP data Luke Air Force Base.

Region 9 concluded that the criteria used to compare ACE split sample data and ATI-Phoenix data is too broad
to discriminate differences caused by manipulation (fraud). Therefore, ACE split sampling program was not
able to detect fraud.

Appendix B

These tables should include dates that the regulations, orders, directives, and guidances were finalized to clarify
which were available at different stages in the Superfund process for the sites audited. Executive Order 12580
which delegates lead agency authority to DOD should be included.

Ongoing and Planned Corrective Actions

1. Region 9 has recently and will continue to seek to require federal facilities, through our comments on their
Quality Assurance Project Plans (QAPjPs), to follow the Agency's Data Quality Objective Process for
Superfund Interim Final Guidance dated September 1993. Region 9 will also ensure that, whenever possible,
numeric data quality objectives on precision, accuracy, completeness, and detection limits are set prior to the
approval of each QAPjP.

2. The OIG draft report found that data validation comparable to the EPA National Functional Guideline was
not performed at DOD sites. The Region has requested that several NPL federal facilities submit representative
data packages to EPA. Region 9 will perform our standard data validation on these packages using EPA's
Functional Guidelines for Data Validation. The data packages not containing sufficient analytical deliverables
and all other data quality problems associated with the other data packages will be identified to DOD for action.

3. The Region has been working with DOD for the last 3 years to raise awareness of the quality assurance
problem and to help define an improved DOD Quality assurance program that will meet or exceed our
minimum standards. We will continue to participate in these efforts. As part of this effort, the Region will
continue to encourage DOD facilities to develop and implement, as part of their quality systems, a self
sufficient performance evaluation program, and will seek to require DOD to submit PE study results to EPA.
The Region plans to score and validate as many PE sample results as our limited resources allow and will make
recommendations to DOD on follow up corrective actions when necessary.

4. In addition to recommending that the Federal facilities conduct PE samples, recently, Region 9 QAMS has
conducted performance evaluation samples for on-site and off-site labs at MCA Tustin (monthly), Yumas MCA
(twice), George AFB, McClellan AFB (twice), and March AFB. Many other performance evaluation activities
are planned.
5. Through the review of work plans and QAPjPs, the Region will seek to require DOD facilities to perform
both pre-award and routine audits of their contract labs. We will also seek to require federal facilities to furnish
all audit reports to EPA.

6. Through the review of work plans and QAPjPs, the Region will seek to require DOD facilities to address how
they will ensure the authenticity of the data. At a minimum, we will seek to require that all organic data for GC
and GC/MS magnetic tapes be archived and available to DOD and EPA upon request. This action would
provide a strong deterrence to the fraudulent activities and any poor quality laboratory performance that have
been observed in the past. Region 9 QAMS has conducted magnetic tape audits on March AFB, Travis AFB,
Luke AFB, and Yumas MCA. Additional tape audits will be conducted as resources allow. The Region is
committing resources for purchasing equipment necessary to develop a regional tape audit capability, and will
suggest DOD do the same.

7. Region 9 and OERR provided training of the use of the Computer Assisted Data Review and Evaluation
(CADRE) software on April 10-13, 1995 to the U.S. Army Corps of Engineers, the U.S. Navy and their
contractors. An additional CADRE training sessions will be provided to the U.S. Air Force later this fall. Since
the first training, QAMS has continued to distribute copies of CADRE and technical assistance to the attendees.
QAMS received confirmation that the Army and Navy will begin to implement data validation using CADRE
on a number facilities. Implementation of CADRE would help remediate vulnerability regarding data quality
deficiencies identified in the IG report.

8. As appropriate, the Region will seek modifications by DOD of their previously approved QA Plans still in
use to incorporate the IG comments regarding data quality objectives, data validation, the use of PE samples,
etc.

9 . One of the IG concerns is that federal facilities have not followed the requirements set forth in FFAs and
approved QAPjPs. The Region's QAMS has developed a QA check list to assist the remedial project managers
in their oversight of the quality system at federal facilities. The QA check list can be used during the Technical
Review Committee meetings to ensure that federal facilities comply with the requirements in the approved
QAPjPs and appropriate oversight follow up is conducted.

10. The Region is exploring the idea of providing training for federal facilities and their contractors that would
aim at improving DOD's overall quality systems, their reporting, development of expertise in the data quality
objectives process, and managing DOD's contractors' laboratories.

                                               APPENDIX B
                                     OIG Evaluation of Region 9 Response

A draft report was provided to the Region on July 20, 1995 and the Region responded on September 5, 1995.
This response is included as Appendix A. An exit conference was held with regional officials on September 18,
1995.

We agreed with many of the Region's specific comments, and have modified our report accordingly. The
modifications did not impact our overall conclusions.

The Region's response to our draft report (see Appendix A) included a Draft Report overview, and comments
on the report's executive summary and individual chapters. Our reaction to the Region's Draft Report overview
is incorporated into the Executive Summary section of our final report. For the balance of the Region's
response, the following chart (referenced to note numbers in the Region's response) summarizes those
comments where we did not agree with the Region. Reasons for our disagreement are discussed in the ensuing
paragraphs.
      Chapter                              Note

Executive Summary                          2,5

           1                               2,3

           2                             1,2,3,4,5

           4                         1,2,3,4,6,7,8,9,10,11

           6                             1,3,4,5,6,7,8,9

           7                                  4,6,7


Executive Summary, Note 2

The Region's actions to elevate the data quality problems to the highest levels of DOD are commendable.
However, at the time of our audit, we do not agree that the Region had significantly strengthened its own
oversight program.

Our review of regional actions for the five sites included in the audit showed that the Region had not intensified
its oversight of these DOD sites, since the discovery of fraud at March AFB in January 1993. To illustrate, the
Region did not use available oversight tools such as performance evaluation samples or laboratory audits in
1993 or 1994 at Sacramento Army Depot, Hunters Point Naval Shipyard, or Luke Air Force Base. Further, the
Region did not require the Air Force to revise the QAPP for March AFB to require performance evaluation
samples, although this activity detected the original fraud.

Executive Summary, Note 5

The Region's actions to detect the fraud at March AFB were outstanding, and have been so recognized in our
audit report. The thrust of our report was to recommend ways that the QAPPs could be improved to readily
identify other poor performing laboratories. Specifically, it is our opinion that the coordination of laboratory
audit results between EPA and DOD would be an effective, yet inexpensive, management technique.

Chapter 1, Note 2

Chapter 2 generally describes what we learned about DOD's quality assurance program. The objective of our
audit was to determine if the Region was ensuring that laboratory data was of acceptable quality under Federal
facilities agreements with DOD. As such, we only evaluated DOD's program to the extent necessary to evaluate
the Region's oversight.

Chapter 1, Note 3

This audit started as a special review of two Federal facility agreements: Sacramento Army Depot and Mather
Air Force Base. During our entrance conference for this review, the Region advised us that the data quality was
not being compromised during the accelerated cleanup process.

Although the Region admitted data quality assurance was "spotty" during this meeting, it did not inform us
about problems with Eureka Laboratories. In this regard, Eureka had been suspended, at the Region's request, 6
months prior to our meeting. In fact, we first learned of problems with Eureka Laboratories from the local
newspaper. Moreover, the Region did not identify any other Federal facility data quality problems during this
meeting.
Chapter 2, Note 1

We believe our assertion that the Region is unfamiliar with DOD's laboratory program is correct.

The Region advised us, during the course of the audit, that it accepted DOD's description of its quality
assurance procedures "at face value." As detailed in Chapter 2, we found that the procedures described by DOD
were sometimes inaccurate. The Region also acknowledged that "some confusion exists concerning the
individual QA programs for the Navy, Army, and Air Force..."

Chapter 2, Note 2

The Region's stated action was not adequate to fully assess the impacts of the Eureka Laboratories fraud. As
noted in this chapter, one of the problems in assessing the effect of Eureka analyses was the identification of the
sites that were impacted. DOD has yet to adequately identify all the NPL sites using Eureka Laboratories, on the
NPL, including McClellan AFB and Sacramento Army Depot. Further, the Region was responsible for
overseeing other closing DOD sites not on the NPL, including Mare Island Naval Shipyard and the Presidio of
San Francisco. Some of these sites may have also used Eureka Laboratories, and the impacts of such usage
would also need to be determined.

Chapter 2, Note 3

The performance evaluation samples discussed in Chapter 2 are of two types. The first type, discussed in the
DOD laboratory QA section, is a preaward, single-blind sample. In other words, the laboratory knows it is
analyzing a performance sample. DOD purported its procedures were the same as EPA's contract laboratory
program procedures which allow a laboratory one opportunity to pass this known test. However, DOD
procedures were not consistent with EPA procedures. To the contrary, some laboratories were given more than
two opportunities to "pass" these tests.

The performance evaluation samples discussed later (in the double-blind PE samples section), are post-award,
double-blind samples. Both EPA's contract laboratory program and DOD allow a laboratory another
opportunity to "pass" these evaluations.

Chapter 2, Note 4

Since the DOD activities have not maintained a tracking system, we disagree that it would be duplicative or
wasteful for EPA to maintain a data base of laboratories used by DOD. The establishment of a tracking system
would be a valuable tool for helping the Region determine where to focus its resources.

Further, as noted by EPA's Office of Solid Waste and Emergency Response (OSWER), there is a need to
monitor "all Superfund analytical activities, not just those analyses provided by [EPA]... laboratories." OSWER
further pointed out that non-EPA laboratory work played a significant role in supporting Superfund.

Chapter 2, Note 5

The referenced graph compares the percentage of sites using data validation, not the percentage of data
validated. In contrast, the subsequent chart shows the percentage of data that is required to be validated based
on our review of 12 QAPPs. As noted in our recommendations, we believe that 20 percent of the data
representing all matrices, analysis types, and laboratories for decision points should be validated, at a bare
minimum. We agree that the data user may require a higher percentage.

Chapter 4, Note 1
It remains our position that the Region did not take adequate action to strengthen its oversight program after
problems with Eureka Laboratories were discovered. As noted in the Region's response, there were problems
with the EPA laboratory's preparation or analysis of data and the laboratory results were not conclusive.
Further, the Region did not submit any additional PE samples to evaluate data quality or perform any other data
quality assurance activities. Also, the QAPP was not changed to add or strengthen the data quality assurance
activities.

Chapter 4, Note 2

We agree data quality objectives do not necessarily prevent fraud. However, they help ensure that data is of
adequate quality. The adequacy of data quality objectives at specific sites is discussed in Chapter 2.

Chapter 4, Note 3

We disagree with the Region's comments. PE samples, magnetic tape audits, and laboratory audits can be used
to help detect fraud, as is evidenced by the March AFB situation. PE samples at March AFB led to detection of
the fraud, by identifying major data problems. As a result of the PE samples, magnetic tape audits were
performed and the fraud was confirmed. Also, a laboratory audit performed before the start of the analyses
found major problems that warranted further investigation. Unfortunately, none of these data quality activities
were required by the QAPP and the QAPP has not been changed to include any of these items.

Chapter 4, Note 4

As indicated in Chapter 2, we believe that the Quality Assurance Officer position should be assigned to
government employees, since they are in a position to independently evaluate data quality.

Chapter 4, Note 6

Our recommendations concerning magnetic tape audits are fully discussed in Chapter 2. We disagree that the
Region cannot require specific quality assurance activities in QAPPs. The Region's authority to approve QAPPs
is clearly defined in 40 CFR Chapter 1, 300 and EPA Order 5360.1. The model Federal facility agreement
requires a QAPP, and QA/R-5 defines the QAPP requirements.

The Region is also incorrect in stating the QAPP did not require laboratory audits. As discussed in this chapter,
laboratory audits were required by the QAPP. The weakness was that it did not require an audit before sampling
started. It is also incorrect that none of the Federal facility QAPPs required laboratory audits. As discussed in
Chapter 2 of this report, 60 percent of the QAPPs we reviewed required laboratory audits. It should be noted
that, in response to our draft report, the Region agreed to require DOD facilities to perform both pre-award and
routine audits.

Chapter 4, Note 7

The QAPP was not approved as part of the Basewide Sampling and Analysis Plan approval. The Region gave
the Air Force additional comments to be incorporated into the QAPP, after it reviewed the Plan. The Air Force
then replied in a letter that it had incorporated all of the suggested changes. However, the Region did not
provide us with any documentation showing it approved the QAPP after the Air Force made the final changes,
nor that it had otherwise ensured that the changes were made to the QAPP.

Chapter 4, Note 8
While we would agree that a laboratory audit, in itself, may not normally detect fraud, it can provide indication
of poor laboratory practices. It is our understanding that a DOD laboratory audit of Eureka Laboratories
detected fraud before problems surfaced at March AFB. However, due to inadequate communication within
DOD, no action was taken to suspend or debar the laboratory.

Chapter 4, Note 9

The purpose of our audit was to evaluate Region 9's oversight of data quality. Making recommendations to the
Air Force was outside the scope of the audit. We have suggested that the DOD Inspector General evaluate
DOD's contract laboratory program.

Chapter 4, Note 10

Again, we agree that data validation, in itself, would not normally detect fraud. It was never our contention that
it would. However, data validation is clearly a valuable tool for detecting unreliable data as evidenced at
Hunters Point, Travis AFB, and Sacramento Army Depot. Data validation is essential at key decision points, if
EPA is to make sound, supportable environmental decisions.

Chapter 4, Note 11

The Region provided different costs for the laboratory analyses and resampling work in its response to the draft
report than it previously presented. However, the Region did not provide us with any additional documentation
to support these revised cost amounts, although this information was requested. Our report, therefore, remains
unchanged.

Chapter 6, Note 1

The Region's response relating to the estimated cost of rejected data and the cost to replace data are
acknowledged. However, since the Region's response also represents an unsupported estimate, we have chosen
to not revise the report.

Chapter 6, Note 3

Our report acknowledges that "cursory" data validation found problems, and that the same laboratories were
dropped from the project. The purpose of this part of the report was to show that full data validation, although
delayed, resulted in the rejection of all organic analyses. Thus, if full data validation had been done promptly,
the rejected data could have been found up to one year earlier.

Chapter 6, Notes 4 and 5

A regional laboratory audit would not be duplicative, since the Navy did not audit NET Pacific, one of
laboratories that had serious problems. It also did not audit one of the three primary replacement laboratories
that performed 24 percent of the analysis.

Chapter 6, Note 6

Good quality, comprehensive laboratory audits can be relied on to detect serious quality assurance problems, as
was illustrated, in Chapter 4, by the Air Force's audit of Eureka Laboratories. Also, when a laboratory audit
recommends not using a laboratory, a potential problem could be avoided.
Nonetheless, our point is that the Region must obtain laboratory audit reports, and consider the depth and scope
of the audit before deciding not to conduct its own laboratory audit.

Chapter 6, Note 7

The due date for the Basewide remedial investigation has been delayed three years, from January 30, 1993 to
February 15, 1996. We estimate that bad data contributed to two years of this delay due to: rejecting data (17
months); and resampling (7 months). The Region did not provide us an estimate of the length of delays due to
the bad data, although this information was requested.

We recognize that other factors may have impacted the three-year delay. The Region's comment that the lack of
available laboratory capacity was another major issue may be part of the problem with bad data. According to
the Navy contractor, "Laboratory nonperformance started impacting [Hunters Point]...in November 1990 when,
first, the inferred capacities [of both laboratories]...were exceeded." These two laboratories provided data that
was eventually rejected 17 months later.

We believe an effective laboratory audit would have prevented samples being sent to laboratories without
sufficient capacity. It is unclear why an engineering contractor would contract with a laboratory without
sufficient capacity.

Chapter 6, Notes 8 and 9

The report did not mention the split samples referenced in the Region's response because they were done in
1995. Our audit scope covered quality assurance activities performed as of December 31, 1994. Further, it is our
understanding the QAPP will be modified by October 2, 1995. We commend the Region for any improvements
in quality assurance activities, such as split sampling and performance evaluation samples, which are now being
used at this site.

Chapter 7, Note 4

Even though the Basewide QAPP went through the same review process as a primary document, the Region did
not provide any documentation showing that it approved the final version of the QAPPs for Luke AFB.

Chapter 7, Note 6

Section 9.3.3.4 of the Basewide QAPP is the only part of the QAPP that addresses magnetic data. However, it
did not specifically require the laboratory to provide the magnetic data needed to perform the tape audits.
Instead, it called for providing electronic data for maintaining a data base of sample results. It should be noted
that the Air Force used the provisions of its laboratory contracts, not QAPP provisions, to obtain the magnetic
tapes from ATI-Phoenix.

Chapter 7, Note 7

It is debatable whether the features lacking from the QAPP would detect fraud. However, they would certainly
detect unreliable data and provide indicators of fraud. The purpose of this audit was to determine if the Region
was ensuring that laboratory data was of known and acceptable quality. The QAPP was prepared to ensure the
quality of laboratory data. This is the goal of EPA's quality assurance program, not just to detect fraud.

We agree that conducting random tape audits and requiring the use of more than one laboratory are good quality
assurance activities and encourage their inclusion in the QAPP.
                                               APPENDIX C
                                         Superfund Cleanup Process

Preliminary Assessment

The initial stage of the cleanup program is an installation-wide study to determine if sites are present that pose
hazards to public health or the environment. Available information is collected on the source, nature, extent, and
magnitude of actual and potential hazardous substance releases at sites on the installation.

Site Assessment

The next step consists of sampling and analysis to determine the existence of actual site contamination.
Information gathered is used to evaluate the site and determine the response action needed. Uncontaminated
sites do not proceed to later stages of the process.

Remedial Investigation

Remedial investigation may include a variety of site investigative, sampling, and analytical activities to
determine the nature, extent, and significance of the contamination. The focus of the evaluation is determining
the risk to the general population posed by the contamination.

Feasibility Study

Concurrent with the remedial investigations, feasibility studies are conducted to evaluate remedial action
options for the site to determine which would provide the protection required.

Remedial Design

Detailed design plans for the remedial action option chosen are prepared.

Remedial Action

The implementation of the chosen remedial option is implemented.

Interim Remedial Action

Remedial actions can be taken at any time during the cleanup process to protect public health or to control
contaminant releases to the environment.

Remedy in Place and Functioning

The remedial action is functioning properly and performing as designed. These include such actions as the
operation of pump and treat systems that will take decades to complete cleanup.

                                              APPENDIX D
                               Regulations, Orders, Directives, and Guidance
                                   OSWER Directives and Publications
OSWER Directive                                                  Title
9240.0-2               Analytical Support for Superfund
9240.0-2A             Further Guidance on OSWER Directive 9240.0-2
                      Extending the Tracking of Analytical Services to Potentially Responsible Party-Lead
9240.0-2B
                      Superfund Sites
9320.2-3A             Procedures for Completion and Deletion of National Priorities List Sites
9355.0-07             Data Quality Objectives For Remedial Response Activities
9355.1-1              Superfund Federal-Lead Remedial Project Management Handbook
                      Guidance for Conducting Remedial Investigations and Feasibility Studies Under
9355.3-01
                      CERCLA
9355.9-01             Guidance on Implementing the Data Quality Objectives Process for Superfund
9830.2                Regional Oversight of Federal Facility Cleanups Under CERCLA
9837.2B               Enforcement Project Management Handbook
9992.4                Federal Facilities Hazardous Waste Compliance Manual
OSWER
Publication
                      US EPA Contract Laboratory Program National Functional Guidelines for Inorganic
9240.1-05
                      Data Review
                      US EPA Contract Laboratory Program National Functional Guidelines for Organic Data
9240.1-05-01
                      Review
                              Regulations, Orders, Directives, and Guidance
    Number                                                    Title
40 CFR Chapter
                    National Oil and Hazardous Substances Pollution Contingency Plan
1, 300
EPA Order
                    Policy and Program Requirements to Implement the Mandatory Quality Assurance Program
5360.1
                    Guidance for Planning for Data Collection in Support of Environmental Decision Making
EPA QA/G-4
                    Using the Data Quality Objectives Process
EPA QA/R-5          EPA Requirements for Quality Assurance Project Plans for Environmental Data Operations
QAMS-005/80         Interim Guidelines and Specifications for Preparing QA Project Plans
                    Guidance on Accelerating CERCLA Environmental Restoration at Federal Facilities,
(No Number)
                    August 1994
                                             Region 9 Guidance
 Number                                                     Title
               US EPA Region 9 Guidance for Preparing Quality Assurance Project Plans for Superfund
9QA-03-89
               Remedial Projects
(No
               Basic Requirements for Quality Assurance at Region 9 Superfund Sites, July 1988
Number)
                                                APPENDIX E
                                    Activities Contacted During the Audit
Activity                                                                    Location
Environmental Protection Agency, Region 9
                                                                            San Francisco, CA
Federal Facilities Cleanup Office
Quality Assurance Management Section                                        San Francisco, CA
Environmental Protection Agency, Headquarters

Office of Solid Waste and Emergency Response,                               Washington, DC

Analytical Operations Branch
Office of Research and Development,
                                                                            Research Triangle Park, NC
Quality Assurance Management Division
Sacramento Army Depot
                                                                            Sacramento, CA
Remedial Project Manager
Engineering Contractor                                                      Sacramento, CA
March Air Force Base
                                                                            Riverside, CA
Remedial Project Manager
Travis Air Force Base
                                                                            Fairfield, CA
Remedial Project Manager
Engineering Contractor                                                      Sacramento, CA
Hunters Point Naval Shipyard
                                                                            San Bruno, CA
Remedial Project Manager
Engineering Contractor                                                      San Francisco, CA
Luke Air Force Base
                                                                            Glendale, AZ
Remedial Project Manager
Mather Air Force Base
                                                                            Rancho Cordova, CA
Remedial Project Manager
Air Force Center for Environmental Excellence                               San Antonio, TX
Army Corps of Engineers
                                                                            Omaha, NE
Missouri River Division
Omaha District                                                                   Omaha, NE
Sacramento District                                                              Sacramento, CA
Naval Facilities Engineering Command
                                                                                 Port Hueneme, CA
Naval Facilities Engineering Service Center
Engineering Field Activity, West                                                 San Bruno, CA
                                                                                 Washington, DC
General Accounting Office
                                                                                 Los Angeles, CA
Department of Defense, Office of Inspector General                               Alexandria, VA
                                                                                 Washington, DC
Air Force Audit Agency
                                                                                 March AFB, CA
Army Audit Agency                                                                Alexandria, VA
Naval Audit Service                                                              Falls Church, VA
State of California
                                                                                 Sacramento, CA
Department of Toxic Substance Control, Region 1
Regional Water Quality Control Board, Central Valley Region                      Sacramento, CA
                                                APPENDIX F
                                           EPA Data Analytical Levels

Level I

This level of data is typically used for screening data in the field. It is characterized by the use of portable
instruments which provide real-time data to assist in determining sampling locations. Results are often not
compound specific or quantitative. It is the least costly of the analytical levels, but data is not accurate enough
to be used for public health risk assessments, evaluating cleanup alternatives, or remedial design.

Level II

Typically employing portable instruments or on-site mobile laboratories, this level of analysis is used for
analyzing data in the field. A wide range of data quality can be generated, depending on the types of
contaminants, calibration standards used, reference materials, and personnel skills. This type of analytical data
is limited mostly to volatiles and metals and is not considered accurate enough for public health risk
assessments or remedial design.

Level III



This analytical level is laboratory analysis using standard EPA-approved procedures. Some procedures may be
equivalent to EPA's contract laboratory program but validation and documentation procedures are normally not
equivalent to EPA's program. This level of analysis is used for engineering studies and, in specific cases, can be
used to provide data for public health risk assessments.

Level IV

Level IV is laboratory analysis using EPA's contract laboratory program protocols. This data level is
characterized by rigorous quality assurance and quality control protocols and specific documentation
requirements. Level IV data packages contain information on initial and continuing calibration, gas
chromatography/mass spectrometry tuning, surrogate recovery percentages, matrix spike duplications, internal
chain of custody, and holding times. Level IV documentation is needed for data validation by EPA national
functional guidelines.

Without Level IV documentation, it is not possible to (1) evaluate many aspects of laboratory analysis, such as
the effect of interferences; (2) confirm the accuracy of quality control summaries provided by the laboratory; or
(3) verify that the analyses were actually performed.

This level of analytical data is relatively expensive and is commonly used for confirming low levels of
contamination, making public health risk assessments, and obtaining highly documented data.

Level V

Level V is special laboratory analyses obtained for EPA's contract laboratory program. Data is analyzed by non-
standard methods and method development or method modification may be required. Data quality is method
specific and data can be used in public health risk assessments.

                                                 APPENDIX G
                                 Definitions of Quality Assurance Techniques

Computerized Data Validation

Computerized data validation is a relatively new quality assurance measure that is more efficient than
traditional manual data validation. EPA has developed an automated data validation program called Computer-
Aided Data Review and Evaluation (CADRE) that has been issued to the field.

Data Validation

Data validation is a method for ensuring laboratory data is of known quality. It involves reviewing data against
a set of criteria to provide assurance that data is adequate for its intended use.

EPA has data validation guidelines, known as national functional guidelines, for its own contract lab program.
According to EPA guidelines, data validation includes a review of documentation such as raw data, instrument
printouts, chain of custody records, and instrument calibration logs.

Double-Blind Performance Evaluation Samples

Performance evaluation samples can be administered by two methods: "blind" or "double-blind". Both methods
are prepared by "spiking" a known concentration of chemicals into a contaminate-free media, such as water or
soil. When a PE sample is blind, the laboratory is aware the sample is a PE, but does not know the chemical
concentration levels.
When a sample is double-blind, the PE sample is submitted as part of a field sample shipment, so that the
laboratory is not only unaware of the concentration levels, it is also unaware that the sample is a PE. A
laboratory's analysis of PE samples are used to evaluate its ability to produce accurate results.

Laboratory Audits

Laboratory audits are on-site audits designed to identify technical areas which may cause laboratories to
improperly identify or quantitate chemicals. Audits normally evaluate a laboratory's technical expertise,
standing operating procedures, facility and equipment sufficiency, and possible sources of sample
contamination.

Magnetic Tape Audits

Electronic data, often in the form of magnetic tapes, are an output of laboratory analyses. By obtaining magnetic
tapes (or other electronic data) from a laboratory, audits can be conducted to help determine:

If the laboratory is complying with its contract;

The integrity of the laboratory's computer systems; and,

The appropriateness of any software editing.

Split Samples

Split samples are samples collected in the field which are divided into two samples. One sample is sent to the
contract laboratory and the other one is sent to an independent laboratory. The results from the two laboratories
are then compared and the differences are analyzed. Split samples can be used to verify the use of proper
analytical methodology and to detect unusual data trends.

                                                    APPENDIX H
                                                     Acronyms
Acronym         Name
AFCEE           Air Force Center for Environmental Excellence
CERCLA          Comprehensive Environmental Response, Compensation, and Liability Act
CLP             EPA's Contract Laboratory Program
DOD             Department of Defense
ESS             (OIG) Engineering and Science Staff
NPL             National Priorities List
OSWER           Office of Solid Waste and Emergency Response
PE              Performance Evaluation (Samples)
QA              Quality Assurance
QAPP            Quality Assurance Project Plan
QAO             Quality Assurance Officer
QC             Quality Control
RI             Remedial Investigation
                                        (This page intentionally left blank.)
                                                  APPENDIX I
                                               Report Distribution
Distribution                Individual or Activity
                            Inspector General (2410)
Office of Inspector
                            Deputy Inspector General (2410)
General
                            Assistant Inspector General for Audit (2410)
                            Assistant Administrator for Enforcement and Compliance Assurance (2211)

                            Assistant Administrator for Research and Development (8101)

                            Assistant Administrator for Solid Waste and Emergency Response (5101)

                            Associate Administrator for Regional Operations and State/Local Relations (1501)

                            Associate Administrator for Congressional and Legislative Affairs (1301)

                            Associate Administrator for Communication, Education, and Public Affairs (1701)
EPA Headquarters
                            Headquarters Library (3304)

                            Director, National Center for Environmental Research and Quality Assurance
                            (8201)

                            Director, Office of Federal Facilities (2261)

                            Director, Federal Facilities Restoration and Reuse Office (5101)

                            Agency Followup Official, Attn: Director, Resource Management Division (3304)
                            Director, Hazardous Waste Management Division (H-1)

                            Assistant Regional Administrator, Office of Policy and Management (P-1)

Region 9                    Chief, Federal Facilities Cleanup Office (H-9)

                            Chief, Environmental Services Branch (P-3)

                            Audit Management Integrity Officer (P-2-1)
                            General Accounting Office

External                    DOD Inspector General

                            Air Force Audit Agency
